APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(August 13, 2019) . . . . . . . . . . . . . App. 1
Appendix B Claims Appeal Determination and
Reasons in the United States District
Court, Eastern District of Louisiana
(January 4, 2018) . . . . . . . . . . . . App. 26
Appendix C Claims Appeal Determination and
Reasons in the United States District
Court, Eastern District of Louisiana
(March 26, 2018) . . . . . . . . . . . . . App. 44
Appendix D Order in the United States District
Court, Eastern District of Louisiana
(February 26, 2018) . . . . . . . . . . App. 47
Appendix E Order in the United States District
Court, Eastern District of Louisiana
(January 31, 2018) . . . . . . . . . . . App. 48
Appendix F Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Fifth Circuit
(September 10, 2019) . . . . . . . . . App. 50
Appendix G Short-Form Legal Notice, Deepwater
Horizon Oil Spill, Halliburton and
Transocean Settlements . . . . . . App. 56

ii
Appendix H Long-Form Legal Notice, Deepwater
Horizon Oil Spill, Halliburton and
Transocean Settlements . . . . . . App. 60

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-30243
[Filed August 13, 2019]
_____________________________________________
IN RE: DEEPWATER HORIZON
)
____________________
)
LAKE EUGENIE LAND & DEVELOPMENT, )
INCORPORATED; ET AL,
)
Plaintiffs,
)
)
v.
)
)
HALLIBURTON ENERGY SERVICES,
)
INCORPORATED; TRANSOCEAN
)
HOLDINGS, L.L.C.,
)
Defendants – Appellees,
)
)
v.
)
)
JULIUS BARBOUR; EDWARD BARNHILL,
)
JR.; EDWARD BARNHILL, SR.; KAREN
)
BARNHILL; SCOTT BLACK; ET AL,
)
Movants – Appellants.
)
____________________
)
JOHN M. PETITJEAN, individually and on
)
behalf of a putative class; ET AL,
)
Plaintiffs,
)
)

App. 2
v.
HALLIBURTON ENERGY SERVICES,
INCORPORATED; TRANSOCEAN
HOLDINGS, L.L.C.,
Defendants – Appellees,
v.
JULIUS BARBOUR; EDWARD BARNHILL,
JR.; EDWARD BARNHILL, SR.; KAREN
BARNHILL; SCOTT BLACK; ET AL,
Movants – Appellants.
____________________
ECONOMIC and PROPERTY DAMAGES
SETTLEMENT CLASS, in the matter of Bon
Secour Fisheries v. BP Exploration &
Production, Incorporated 12cv970,
Plaintiff,
v.
HALLIBURTON ENERGY SERVICES,
INCORPORATED; TRANSOCEAN
HOLDINGS, L.L.C.,
Defendants – Appellees,
v.
JULIUS BARBOUR; EDWARD BARNHILL,
JR.; EDWARD BARNHILL, SR.; KAREN
BARNHILL; SCOTT BLACK; ET AL,
Movants – Appellants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 3
CONSOLIDATED WITH 18-30413
IN RE: DEEPWATER HORIZON
____________________________
LAKE EUGENIE LAND & DEVELOPMENT,
INCORPORATED; ET AL,
Plaintiffs,
v.
HALLIBURTON ENERGY SERVICES,
INCORPORATED; TRANSOCEAN
HOLDINGS, L.L.C.,
Defendants – Appellees,
v.
JULIUS BARBOUR; EDWARD BARNHILL,
JR.; EDWARD BARNHILL, SR.; KAREN
BARNHILL; SCOTT BLACK; ET AL,
Movants – Appellants.
____________________________
JOHN M. PETITJEAN, individually and on
behalf of a putative class; ET AL,
Plaintiffs,
v.
HALLIBURTON ENERGY SERVICES,
INCORPORATED; HALLIBURTON
COMPANY,
Defendants – Appellees,
v.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 4
JULIUS BARBOUR; EDWARD BARNHILL,
JR.; EDWARD BARNHILL, SR.; KAREN
BARNHILL; SCOTT BLACK; ET AL,
Movants – Appellants.
___________________________
JOHN M. PETITJEAN, individually and on
behalf of a putative class; ET AL,
Plaintiffs,
v.
TRITON ASSET LEASING GmbH;
TRANSOCEAN DEEPWATER,
INCORPORATED; TRANSOCEAN
HOLDINGS, L.L.C.; TRANSOCEAN
OFFSHORE DEEPWATER DRILLING,
INCORPORATED,
Defendants – Appellees,
v.
JULIUS BARBOUR; EDWARD BARNHILL,
JR.; EDWARD BARNHILL, SR.; KAREN
BARNHILL; SCOTT BLACK; ET AL,
Movants – Appellants.
_____________________________
ECONOMIC and PROPERTY DAMAGES
SETTLEMENT CLASS, in the matter of Bon
Secour Fisheries v. BP Exploration
& Production, Incorporated 12cv970,
Plaintiff,
v.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 5
)
)
)
)
)
v.
)
)
JULIUS BARBOUR; EDWARD BARNHILL,
)
JR.; EDWARD BARNHILL, SR.; KAREN
)
BARNHILL; SCOTT BLACK; ET AL,
)
Movants – Appellants.
)
)
CONSOLIDATED WITH 18-30533
)
)
In re: Deepwater Horizon
)
-------------------------)
DOBBY DARNA; DARRIN COVERT;
)
RICHARD DELACEY; JOSEPH
)
WILLIAMSON; GEORGE ZIRLOTT,
)
Plaintiffs – Appellants,
)
)
v.
)
)
HALLIBURTON ENERGY SERVICES,
)
INCORPORATED; HALLIBURTON
)
COMPANY; TRANSOCEAN HOLDINGS,
)
L.L.C.; TRITON ASSET LEASING GMBH;
)
TRANSOCEAN DEEPWATER,
)
INCORPORATED; TRANSOCEAN
)
OFFSHORE DEEPWATER DRILLING,
)
INCORPORATED,
)
Defendants – Appellees.
)
____________________________________________ )
HALLIBURTON ENERGY SERVICES,
INCORPORATED,
Defendant – Appellee,

App. 6
Appeals from the United States District Court
for the Eastern District of Louisiana
Nos. 2:10-MD-2179, 2:12-CV-970, 2:15-CV-4143,
2:15-CV-4146, and 2:15-CV-4654
Before KING, ELROD, and ENGELHARDT, Circuit
Judges.
PER CURIAM:
Following the Deepwater Horizon disaster,
Halliburton Energy Services, Inc. and Transocean
Holdings, L.L.C. each entered into a punitive damages
settlement agreement with a class of claimants who
alleged that they were harmed by the oil spill. In these
consolidated appeals, a group of menhaden fishermen
challenge the denial of their claims pursuant to those
settlements. Because the magistrate judge properly
affirmed the denial of the claims and the district court
properly declined review, we AFFIRM.
I.
Appellants are commercial menhaden fishermen
(the Fishermen) who allegedly suffered economic loss
due to the Deepwater Horizon oil spill. The Fishermen
did not file separate lawsuits against BP or any of the
other entities involved in the spill. However, they fell
within the class definition in the class-action portion of
the B1 Master Complaint filed in the Deepwater
Horizon MDL.1 The B1 Master Complaint sought
1

As we explained in Graham, the district court divided the claims
against BP, Transocean, and the other entities into pleading
bundles for ease of administration. In re Deepwater Horizon
(Graham), 922 F.3d 660, 664 (5th Cir. 2019). The B1 Master

App. 7
compensatory and punitive damages on behalf of the
B1 plaintiffs and class members.
The familiar Deepwater Horizon Economic and
Property Damages Settlement (E&P Settlement)
eventually resolved the majority of the claims asserted
in the B1 Master Complaint. However, the terms of
that agreement specifically excluded the Fishermen.
Instead, the Fishermen entered into settlement
agreements with the Appellees, Halliburton Energy
Services, Inc. (HESI) and Transocean Holdings, L.L.C.
(Transocean). These class settlement agreements (the
HESI Settlements) created a fund to distribute among
the claimants for punitive damages arising out of the
oil spill, and the parties agree that the Fishermen fit
within the class definition set out in the settlements.2
The HESI Settlements also include a provision limiting
the claimants’ rights to appeal to this court. The HESI
Settlements were entered into and filed with the
district court on September 2, 2014 (HESI) and
May 29, 2015 (Transocean).3
Complaint asserted claims on behalf of plaintiffs in the B1
pleading bundle, which encompassed claims for “non-governmental
economic loss and property damages.” The class-action portion of
the complaint defined the class as follows: “All individuals and
entities residing or owning property in the United States who
claim economic losses, or damages to their occupations, businesses,
and/or property as a result of the April 20, 2010 explosions and fire
aboard, and sinking of, the Deepwater Horizon, and the resulting
Spill.”
2

The terms of the two HESI Settlements are substantially the
same for purposes of this appeal, except where otherwise indicated.
3

The HESI Settlement was amended on September 2, 2015.

App. 8
While these settlements were awaiting district court
approval, the district court issued Pretrial Order 60
(PTO 60) on March 29, 2016, which applied to all
claims in the B1 pleading bundle. Foreseeing “no
further administrative or procedural benefit to
maintaining” the B1 Master Complaint, PTO 60 first
dismissed that complaint. It then instructed
“[p]laintiffs [who] did not file an individual lawsuit, but
instead filed a [short-form joinder] and/or were part of
a complaint with more than one plaintiff” to file an
individual lawsuit with the district court by May 2,
2016. PTO 60 warned that plaintiffs who failed to
comply would “have their claims deemed dismissed
with prejudice without further notice.”
On April 12, 2016, the district court preliminarily
approved the HESI Settlements, and notice of their
terms was given to class members, including the
Fishermen. The April 12, 2016 order, inter alia, set
deadlines for objecting to (September 23, 2016) and
opting out of (October 16, 2016) the proposed
settlements and scheduled a fairness hearing to be held
on October 20, 2016. A few weeks later, on May 2,
2016, the deadline to comply with PTO 60 expired. The
Fishermen did not file individual lawsuits, nor did they
seek relief from PTO 60 or additional time to comply.
On June 7, 2016, the district court issued a show cause
order to B1 plaintiffs who had failed to comply with
PTO 60. The Fishermen did not respond to the order.
Thereafter, on July 14, 2016, the district court found
that “[a]ll remaining Plaintiffs in the B1 bundle . . .
[were] deemed noncompliant with PTO 60” and
dismissed their claims with prejudice. Order Re:
Compliance with PTO 60 at 5, In re Oil Spill by the Oil

App. 9
Rig “Deepwater Horizon” in the Gulf of Mex. on Apr. 20,
2010, No. 2:10-md-2179-CJB-JCW (E.D. La. July 14,
2016), ECF No. 20996.
After the issuance of the June 7, 2016 show cause
order but before the June 28, 2016 deadline to respond,
the Claims Administrator for the HESI Settlements
filed a proposed Distribution Model on June 13, 2016
detailing how claims would be processed under the
agreements. The Distribution Model specified that
commercial fishermen, including menhaden fishermen,
would be required to provide “proof of [their] timely
preservation of [their] rights to a claim for damages by
compliance with [PTO 60].” Both the Distribution
Model and the attached Claim Form warned that
claims would be assigned a value of $0 if the claimant
had failed to comply with PTO 60. Although other class
members filed objections to the Distribution Model on
the ground that it improperly required claimants to
comply with PTO 60, the Fishermen did not object. Nor
did the Fishermen attend the “fairness hearing” that
the district court held in November 2016 to address
objections to the Distribution Model.
On February 15, 2017, the district court gave its
final approval of the HESI Settlements and the Claims
Administrator’s Distribution Model. In its approval
order, the district court declined to comment on the
propriety of the Claims Administrator’s interpretation
of the HESI Settlements as requiring compliance with
PTO 60. Instead, the district court observed that “[t]his
objection [was] most properly considered in an appeal
to [the district court] after claim determinations [were]
concluded.” On February 14, 2018, a year after the

App. 10
district court issued the approval order, the Fishermen
filed a Federal Rule of Civil Procedure 60(b) motion for
relief from that order, arguing that the Distribution
Model was contrary to the terms of the HESI
Settlements and that they had not received adequate
notice of PTO 60 or its applicability to their claims. The
district court denied the motion.
The Fishermen submitted claims pursuant to the
HESI Settlements, but the Claims Administrator
denied them because the Fishermen had failed to
comply with PTO 60. The Fishermen then appealed to
the district court, which had referred “all appeals of
claim determinations by the HESI/Transocean
settlements claims administrator” to the magistrate
judge pursuant to an agreement between the parties.
The magistrate judge affirmed the denial, holding that
requiring the Fishermen to comply with PTO 60 was
consistent with the terms of the HESI Settlements and
“the general maritime law precept that a claimant may
obtain punitive damages only if that claimant has
underlying compensatory damages.”
The Fishermen objected to the magistrate judge’s
determination, complaining that his reliance on PTO
60 was contrary to the terms of the HESI Settlements
and violated their due process rights. The district court
overruled the objection on the ground that the
claimants had waived their right to appeal the
magistrate judge’s determination to any other court,
including the Fifth Circuit. The Fishermen then
appealed to this court.

App. 11
II.
As an initial matter, we address the Fishermen’s
pending motion to take judicial notice of the docket and
complaint in Bruhmuller v. BP Exploration &
Production Inc. Complaint, Bruhmuller v. BP Expl. &
Prod. Inc., No. 2:13-CV-97 (E.D. La. Jan. 18, 2013),
ECF No. 1. We may take judicial notice of prior court
proceedings as matters of public record. ITT Rayonier
Inc. v. United States, 651 F.2d 343, 345 n.2 (5th Cir.
1981) (“A court may . . . take judicial notice of its own
records or of those of inferior courts.”). We GRANT the
motion, and we have considered these materials in our
review of the case.
III.
The Fishermen raise four issues on appeal:
(1) whether this appeal is barred by the appeal waiver
in the HESI Settlements; (2) whether the magistrate
judge erred in affirming the denial of their claims;
(3) whether the district court erred by declining to
review the magistrate judge’s decision; and (4) whether
the district court erred in denying their Rule 60(b)
motion.
A.
The appeal waiver in the HESI Settlement reads as
follows:
[T]he Claims Administrator shall establish
rules for appealing the determinations of the
Claims Administrator to the [district] Court. The
[district] Court’s decision on any such appeal
involving the amount of any payment to any

App. 12
individual claimant (other than a determination
that a claimant is not entitled to any payment
due to a failure to meet the class definition)
shall be final and binding, and there shall be no
appeal to any other court including the U.S.
Court of Appeals for the Fifth Circuit.
The Transocean Settlement contains a similar
provision, but it omits the exception in parentheses.
The Fishermen argue that this appeal waiver does
not foreclose our review because their appeal does not
“involv[e] the amount of any payment to any individual
claimant” under the HESI Settlements—instead, the
Claims Administrator determined that they were not
eligible to recover at all. Alternatively, they argue that
their appeal fits within the parenthetical exception for
“a determination that a claimant is not entitled to any
payment due to a failure to meet the class definition.”
The Appellees respond that “the Claims
Administrator’s decision was that Appellants are
entitled to receive $0, a clear determination as to ‘the
amount of payment to any individual claimant.’”
We have enforced appeal waivers in settlement
agreements in prior unpublished cases. See Hill v.
Schilling, 495 F. App’x 480, 487–88 (5th Cir. 2012);
Campbell Harrison & Dagley, L.L.P. v. Hill, 582 F.
App’x 522, 523–24 (5th Cir. 2014). And in the context
of the Deepwater Horizon settlements specifically, we
have indicated that we would enforce an express
waiver of the right to appeal from the district court’s
claim determinations. In re Deepwater Horizon, 785
F.3d 986, 997 (5th Cir. 2015). But because we conclude
that the Fishermen cannot prevail on the merits, we

App. 13
need not determine whether the appeal waiver in the
HESI Settlements bars their appeal. See United States
v. Story, 439 F.3d 226, 230 (5th Cir. 2006) (“[A]ppeal
waivers . . . do not deprive us of jurisdiction.”).
B.
We turn next to the issue of whether the magistrate
judge erred in affirming the denial of the Fishermen’s
claims. We conclude that the magistrate judge’s
decision was correct.
Under maritime law, a plaintiff’s recovery of
punitive damages is tied to his or her underlying
compensatory damages claim. See Exxon Shipping Co.
v Baker, 554 U.S. 471, 506–07 (2008). It is
unsurprising, then, that the HESI Settlements
contemplated that claimants would need to “establish
a claim for commercial fishing loss” to recover punitive
damages. The Distribution Model set out three
methods by which claimants could establish a
compensatory damages claim: (1) by filing a claim
pursuant to the E&P Settlement; (2) by filing proof of
a separate settlement with BP that did not release the
claimant’s punitive damages claims; or (3) by filing an
individual lawsuit as required by PTO 60. As we
explained, the Fishermen were excluded from the E&P
Settlement, and they do not argue here that they
entered into a separate compensatory damages
settlement with BP. Consequently, to establish a
compensatory damages claim upon which to predicate
their recovery of punitive damages under the HESI
Settlements, the Fishermen had to comply with PTO
60.

App. 14
The Fishermen acknowledge that they received
notice of this obligation to comply with PTO 60 at the
latest when the Claims Administrator filed the
Distribution Model in the district court on June 13,
2016. At that time, although the deadline to comply
with PTO 60 had passed, the district court’s show
cause order was in effect, and the deadline to
respond—June 28, 2016—was two weeks away. The
Fishermen did not respond to the show cause order, nor
did they attempt at any point to file individual lawsuits
or seek additional time to comply with PTO 60,
although the district court had granted extensions to
other parties.
The circumstances of this case are quite similar to
those in our recent decision in Barrera. In re Deepwater
Horizon (Barrera), 907 F.3d 232 (5th Cir. 2018). There,
although the plaintiff-fishermen received notice of PTO
60, they failed to comply, arguing that they were
unable to file individual lawsuits because they were
working offshore. Id. at 234. The district court
dismissed their claims with prejudice, and we affirmed,
observing that the plaintiffs had a “number of
opportunities . . . to either comply with PTO 60 [or]
explain why they could not do so.” Id. at 235–37. As in
Barrera, the Fishermen here knew of their obligation
to comply with PTO 60 but still failed to file individual
lawsuits. And unlike in Barrera, the Fishermen did not
attempt to comply with PTO 60 at any point
throughout these proceedings. The magistrate judge
therefore correctly affirmed the denial of their claims.
Despite the above, the Fishermen challenge the
magistrate judge’s decision on several grounds:

App. 15
(1) requiring compliance with PTO 60 was contrary to
the terms of the HESI Settlements; (2) PTO 60 did not
apply to the Fishermen; and (3) requiring compliance
with PTO 60 violated the Fishermen’s due process
rights. Each of these arguments is unavailing.
1.
The Fishermen first contend that requiring
compliance with PTO 60 was contrary to the terms of
the HESI Settlements, arguing that the settlements
deem any claimant who fits within the class definition
to have standing. Thus, they maintain that they did not
need to make a separate showing of standing by filing
individual lawsuits to preserve their compensatory
damages claims. According to the Fishermen, this was
a “contractual concession” by the Appellees similar to
BP’s contractual concession that proof of causation was
not required under the E&P Settlement. See In re
Deepwater Horizon (Bon Secour Fisheries), 744 F.3d
370, 377 (5th Cir. 2014). The Fishermen also
emphasize that “the law is not settled in this circuit” as
to whether they have standing, but the HESI
Settlements nonetheless expressly include them in the
class definition. They argue that the HESI Settlements
would not have included claimants whose standing is
unclear in the class definition if a separate showing of
standing was required—instead, a claimant is entitled
to recover under the HESI Settlements merely by
proving that he is a member of the class.
“The interpretation of a settlement agreement is a
question of contract law that this [c]ourt reviews de
novo.” In re Deepwater Horizon, 785 F.3d 1003, 1011
(5th Cir. 2015). The primary provision of the HESI

App. 16
Settlements on which the Fishermen rely to deem
standing is the class description found in Section 3: “It
is the intent of the Parties to capture within the New
Class definition all potential claimants . . . who may
have valid maritime law standing to make a Punitive
Damages Claim under general maritime law against
[Appellees.]” However, the class definition in Section 4
does not include any language regarding standing. Nor
does the quoted language from the class description
unequivocally deem standing for class members as the
Fishermen contend. Instead, the class description
provision demonstrates that the parties recognized that
the class definition encompasses claimants whose
standing is uncertain under existing law, without
saying anything about whether a separate showing of
maritime standing is required for recovery under the
settlements. At best, this provision is silent as to
whether class members must separately prove
standing.
Helpfully, the class description in Section 3 is not
the only provision in the HESI Settlements that sheds
light on whether claimants were deemed to have
standing such that compliance with PTO 60 was
unnecessary. First, the HESI Settlements contain the
statement that “this [settlement agreement] shall be
interpreted in accord with general maritime law.” As
we discussed above, maritime law links a plaintiff’s
recovery of punitive damages to his or her underlying
compensatory damages claim. See Exxon Shipping Co.,
554 U.S. at 506–07.
In addition, as we also noted above, the section of
the HESI Settlements providing for the creation of the

App. 17
Distribution Model by the Claims Administrator,
Section 8, contains the following provision: “The plan
for distribution of payments to the New Class
recommended by the Claims Administrator may, at
his/her discretion, include . . . a standard to establish
a claim for commercial fishing loss.” This expressly
recognizes that claimants may be required to
demonstrate that they have a claim for loss—in other
words, a claim seeking compensatory damages—in
order to proceed under the HESI Settlements. By
requiring compliance with PTO 60 as one possible way
to establish such a claim, the Claims Administrator
was exercising the discretion afforded him under this
provision.
Finally, in Section 19, the HESI Settlements
contain a series of provisions stipulating that the
parties will seek certain orders from the district court
to effectuate the settlements. One of those provisions
requires the parties to obtain an order that:
Adopt[s] the interpretation as to the scope of
Robins Dry Dock in the [district court’s] Order
and Reasons [As to Motions to Dismiss the B1
Master Complaint] . . . by finding that the New
Class as defined and described in sections 3 and
4 includes all potential claimants who have
standing to bring claims under general maritime
law as interpreted by Robins Dry Dock v. Flint,
275 U.S. 203 (1927), State of Louisiana ex. Rel.
Guste v. M/V Testbank, 752 F.2d 1019 (5th Cir.
1985), and their progeny[.]
Thus, the parties specifically bargained for an order by
the district court limiting the class of claimants who

App. 18
could recover under the HESI Settlements to
“claimants who have standing to bring claims under
general maritime law” as interpreted by the two named
cases and their progeny.
Robins Dry Dock stands for the proposition that a
plaintiff who sustains only economic loss
unaccompanied by personal injury or property damage
generally does not have standing to recover damages
under maritime law. See Robins Dry Dock & Repair Co.
v. Flint, 275 U.S. 303, 309 (1927); Wiltz v. Bayer
CropScience, Ltd. P’ship, 645 F.3d 690, 695–96 (5th
Cir. 2011). In M/V Testbank, we noted that “[a]
substantial argument can be made that commercial
fishermen possess a proprietary interest in fish in
waters they normally harvest sufficient to allow
recovery for their loss.” State of La. ex rel. Guste v.
M/V Testbank, 752 F.2d 1019, 1027 n.10 (5th Cir.
1985). But we declined to decide whether commercial
fishermen were an exception to the Robins Dry Dock
rule. Id.
The district court order referenced in the
provision—the order on the motions to dismiss the B1
complaint—interpreted these two cases, in conjunction
with the district court’s decision in M/V Testbank, as
creating an exception to Robins Dry Dock to allow
commercial fishermen to sue for mere economic loss
arising out of the Deepwater Horizon oil spill. Order
and Reasons Granting in Part, Denying in Part,
Defendants’ Motions to Dismiss the B1 Master
Complaint at 19–20, In re Oil Spill by the Oil Rig
“Deepwater Horizon” in the Gulf of Mex. on Apr. 20,
2010, No. 2:10-md-2179-CJB-JCW (E.D. La. Aug. 26,

App. 19
2011), ECF No. 3830. In light of this interpretation, we
read the above-quoted provision to indicate that for the
purposes of the HESI Settlements, the Fishermen are
not barred from recovery by Robins Dry Dock even
though we have not affirmatively established that they
would have standing under that rule. However, this
provision does not purport to eliminate standing issues
unrelated to Robins Dry Dock, especially the
fundamental requirement that a plaintiff has suffered
injury in fact. See Lujan v. Defs. of Wildlife, 504 U.S.
555, 560 (1992).
Thus, this case is distinguishable from Bon Secour
Fisheries in that the settlement at issue there—the
familiar E&P Settlement—set out express causation
requirements that departed from the proof of causation
a claimant would have been required to provide under
general tort law. 744 F.3d at 375–77. Here, the HESI
Settlements contemplate that the class encompasses
only claimants “who have standing to bring claims
under general maritime law”—suggesting that
claimants must make the same showing of standing to
recover under the settlements as they would under
maritime law, subject to the district court’s
interpretation of Robins Dry Dock and M/V Testbank.
Unlike in Bon Secour Fisheries, the Appellees did not
“contractually concede” standing under the HESI
Settlements.
For the reasons described, we hold that requiring
the Fishermen to establish underlying compensatory
damages claims by complying with PTO 60—in other
words, requiring them to have standing to recover

App. 20
punitive damages under maritime law—was not
contrary to the terms of the HESI Settlements.
2.
The Fishermen next argue that PTO 60 did not
apply to them. Specifically, they contend that the
district court’s conclusion that PTO 60 applied to
unnamed class members in class action suits was
incorrect because PTO 60 only mentions “mass joinder”
plaintiffs, and class actions are distinct from mass
joinder suits. Although the Fishermen acknowledge
that we affirmed the district court’s dismissal of class
action claims under PTO 60 in Perez, they “make a
good-faith assertion that the Perez ruling was incorrect
and should be reconsidered.” See In re Deepwater
Horizon (Perez), 713 F. App’x 360 (5th Cir. 2018).
We review the district court’s docket management
decisions for an abuse of discretion, affording “special
deference” to a district court administering an MDL.
Barrera, 907 F.3d at 234–35. In Perez, the appellants,
who had filed a series of class action suits in the BP
MDL, challenged the district court’s decision that they
were required to comply with PTO 60 and file singleplaintiff lawsuits instead. 713 F. App’x at 362.
Observing that PTO 60 applied to class actions, we
affirmed the district court’s dismissal of the appellants’
class action claims with prejudice. Id. The Supreme
Court denied the appellants’ petition for a writ of
certiorari. Perez v. B.P., P.L.C., No. 18-59, 139 S. Ct.
231 (Oct. 1, 2018). We see no reason to revisit Perez
here: The district court did not err in applying PTO 60
to unnamed class members.

App. 21
3.
The Fishermen’s third basis for challenging the
magistrate judge’s decision is that requiring them to
comply with PTO 60 violated their due process rights.
Their core argument in this regard is that they “did not
have constitutionally adequate notice that they had to
comply [with PTO 60] in order to receive compensation
under the [HESI Settlements].” Whether a claimant’s
due process rights were violated is a question of law
that this court reviews de novo. See Simi Inv. Co. v.
Harris Cty., 236 F.3d 240, 249 (5th Cir. 2000).
On this issue, the Fishermen first point to the
district court’s decision to excuse noncompliance with
PTO 60 for certain claimants due to a “notice gap.”
They also contend that the terms of PTO 60, the terms
of the HESI Settlements, and the notices of those
settlements sent to class members did not adequately
inform them that compliance with PTO 60 was a
prerequisite to recovery under the settlements. Finally,
while the Fishermen acknowledge that the Distribution
Model put them on notice of the requirement to file
individual lawsuits, they emphasize that the
Distribution Model was not filed until after the
deadline to comply with PTO 60 had expired.
The Fishermen’s “notice gap” argument analogizes
their situation to that of Zat’s Restaurant, a claimant
that the district court excused from compliance with
PTO 60 because it had not received notice of that order.
As addressed above, we reject this argument because,
unlike Zat’s, the Fishermen did not attempt to comply
with PTO 60 once they did receive notice of it. In fact,
we observe that the Fishermen had numerous

App. 22
opportunities to comply with, object to, or otherwise
challenge the PTO 60 compliance requirement before
their claims were denied by the Claims Administrator,
but they failed to do so. First, the Fishermen had an
opportunity to respond to the district court’s show
cause order with respect to PTO 60 after they
unequivocally received notice via the Distribution
Model that failure to comply with PTO 60 would bar
their claims under the HESI Settlements. Second, the
Fishermen had an opportunity to object to the
Distribution Model itself based on the PTO 60
compliance requirement. Third, the Fishermen had an
opportunity to participate in a fairness hearing before
the district court to challenge the Distribution Model
based on the PTO 60 compliance requirement. Fourth,
the Fishermen had an opportunity to appeal the
district court’s order approving the HESI Settlements
and Distribution Model based on the PTO 60
compliance requirement.
Given the above, we cannot conclude that the
Fishermen did not receive adequate notice or an
opportunity to be heard on the PTO 60 compliance
issue. See Barrera, 907 F.3d at 236 (affirming dismissal
of plaintiffs’ claims for failure to comply with PTO 60
“[g]iven the number of opportunities the district court
gave Plaintiffs to either comply with PTO 60 [or]
explain why they could not do so”). Requiring
compliance with PTO 60 to recover under the HESI
Settlements did not violate the Fishermen’s due
process rights.
None of the Fishermen’s arguments convince us
that the magistrate judge’s decision to affirm the denial

App. 23
of their claims was incorrect. We therefore hold that
the magistrate judge did not err in applying PTO 60 to
the Fishermen’s claims under the HESI Settlements.
C.
The Fishermen also complain that the district court
erred in declining to review their objections to the
magistrate judge’s decision. First, they note that the
district court’s order referring matters to the
magistrate judge (the Referral Order) only delegated
“questions regarding the amount of payments.” This is
not correct. The Referral Order, which the parties
agreed to, referred “all appeals of claim determinations
by the HESI/Transocean settlements claims
administrator” to the magistrate judge. Thus, the
Fishermen’s appeal from the denial of their claims was
within the scope of the Referral Order and was
properly reviewed by the magistrate judge.
Second, the Fishermen point to the district court’s
statement in its order approving the HESI Settlements
that objections to the PTO 60 compliance requirement
were “most properly considered in an appeal to [the
district court] after claim determinations [were]
concluded.” In the Fishermen’s view, this statement
reserved the PTO 60 compliance issue for the district
court’s review, so it should not have been delegated to
the magistrate judge. However, the Fishermen cite no
authority for the proposition that this determination
was not delegable to the magistrate judge. On the
contrary, that is precisely what the parties agreed to in
the Referral Order, which the district court issued after
the approval order in which it expressed that it would
consider the PTO 60 compliance issue at a later time.

App. 24
Thus, as the magistrate judge recognized, his decision
in this case was the promised consideration of the PTO
60 compliance issue at a later stage of the proceedings.
That the Fishermen disagree with the magistrate
judge’s decision on that issue does not permit them to
circumvent the Referral Order that they bargained for.
D.
Finally, the Fishermen contend that the district
court erred in denying their Rule 60(b) motion, which
they filed a year after the district court issued the
order approving the Distribution Model. This court
reviews a district court’s denial of a Rule 60(b) motion
for an abuse of discretion. Lowry Dev., L.L.C. v. Groves
& Assocs. Ins., Inc., 690 F.3d 382, 385 (5th Cir. 2012).
As the Fishermen explain, their Rule 60(b) motion
raised the same arguments that they raised in their
appeal of the magistrate judge’s decision affirming the
denial of their claims. Because we conclude that the
magistrate judge’s decision was correct, we hold that
the district court did not err in denying the
Fishermen’s Rule 60(b) motion for the same reasons.
IV.
We recognize that, in the unique facts of this case,
our holding leads to an unfortunate result for the
Fishermen, who were unnamed, unrepresented class
members for much of these proceedings—the record is
not clear as to when they became represented. As a
result, as even the Appellees recognized at oral
argument, affirming the denial of the Fishermen’s
claims may appear unduly harsh. However, we are
bound by our precedent, by the plain language of the

App. 25
HESI Settlements, and by the deferential standard of
review applicable to several of the issues in this case.
Under those standards, the magistrate judge correctly
affirmed the denial of the Fishermen’s claims, the
district court did not err in declining to review the
magistrate judge’s decision, and the district court did
not err in denying the Fishermen’s Rule 60(b) motion.
We must therefore AFFIRM the district court’s
judgment.

App. 26

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
Civil Action Nos. 12-970, 15-4143, 15-4146
and 15-4654
JUDGE BARBIER
MAG. JUDGE WILKINSON
[Filed January 4, 2018]
_____________________________________
IN RE: OIL SPILL BY THE OIL RIG
“DEEPWATER HORIZON” IN THE
GULF OF MEXICO ON APRIL 20, 2010
______________________________________

)
)
)
)

MINUTE ENTRY
WILKINSON, M. J.
JANUARY 4, 2018
MDL NO. 2179
SECTION “J”
THIS DOCUMENT RELATES TO:
Civil Action Nos. 12-970, 15-4143, 15-4146 and 15-4654
CLAIMS APPEAL DETERMINATION AND
REASONS
[Halliburton and Transocean Settlement]
This Appeal Determination addresses the denial of
80 claims for payment from the Halliburton/

App. 27
Transocean Settlement fund. Specifically, the appeals
address the claims of the following claimants:
Emanual McDonald, No. 605*******; L.V. Evans,
No. 744*******; Lillian Alexander, No. B24*******;
Keith C. Kelley, No. 52C*******; Kim Slaughter,
No. 2DD*******; Marie James, No. 2B7*******;
Jhoquan Hibbler, No. 4C5*******; Demarco Jones,
No. F58*******; Timothy Alexander, No. 79f*******;
Teresa Travis, No. F7F*******; Kendall C. Annan,
No. 810*******; Brian Phillip Annan, No. BC1 *******;
Due Nguyen, No. 197*******; Calvin Dumas, No.
B1B*******; Donna Kennedy, No. 24A *******; Kerry
Kiehl, No. 2CC*******; Norwood D. Cain, Sr.,
No. D8F*******; Deloyd E. Williamson,
No. 0C3*******; Donald Zirlott, No. BEC*******;
James Johns, No. 648*******; Cleve Boatwright,
No. 4D4*******; Randolph S. Dama, Jr.,
No. 579*******; David E. Simms, Sr., No. F4C*******;
Doran Hoffman, No. 868*******; Edward J. Barnhill,
No. 937*******; Richard S. Harbison, No. 44A *******;
James O. Stewart, No. 4B7*******; Thomas Smith,
No. 06D*******; Bobby Shane Esfeller, No. 95C*******;
Michael Krause, No. E58*******; Marion L. Strange,
No. ESB*******; Jerry Walker, No. 874*******; Martin
Young, No. DF8*******; Dennis Zirlott,
No. 6EF*******; William C. Stewart, No. C0F*******;
Derek Wainwright, No. 225*******; Clarence Waters
III, No. A78*******; Scott Black, No. 9FF*******; Roy
L. Kibbe, No. FD2*******; Julius Barbour, No. 62A
*******; Edward Barnhill, No. D79*******; Jerel
Conley , N o. EB2*******; Donald Stork,
No. B2D*******; Helton Nelson, No. 143*******; Simon
Zirlott, No. 954*******; Frank Conley, No. 224*******;

App. 28
Charles Cowart, No. 2B0*******; Arthur Coleman,
No. B40*******; Jason Parker, No. C9D*******;
William Ladnier, Sr., No. 9C9*******; Travis
Wilkerson, No. 811 *******; Richard Lolly,
No. 640*******; Troy Cornelius, Sr., No. 583*******;
Rory Johnson, No. 9D6*******; William A. Ladnier, Jr.,
No. 76A *******; David Krause, No. 124*******; Karen
Barnhill, No. D26*******; Cecil Wainwright, Jr.,
No. 78B*******; Richard Turner, No. A89*******;
Anthony Moralis, No. F43*******; Richard Harbison,
No. 751 *******; Destin P. O’Brien, No. 7C2*******;
Franklin McCall, No. AEA *******; James M. Dooley,
No. 8E6*******; Ernest Fisher Price, No. 780*******;
Randolph S. Dama, III, No. AAE*******; Tommy
Obrien, No. 598*******; Benjamin Hamilton,
No. D84*******; Michael Shane Dooley,
No. AB0*******; Daryl R. Johnson, No. E7A*******;
Lloyd Nielson, No. BD1 *******; Charles Wallace, Jr.,
No. 0FA *******; Ernest Harris, No. 00A *******;
Justin Sawyer, No. 413*******; James Parker, III/
James W. Parker, No. A38*******; Allan B. Dopirak,
No. D50*******; Ricky Gomes, No. 735*******; Robert
Chad Paul, No. 4D9*******; Charles Porter,
No. F49*******; and Jesse Stringo, Jr.,
No. BB5*******.
As to each claim, the Claims Administrator has
provided me with the Appeal Determination Notice,
Court Review Request, Claim Form and Settlement
Program Appeal Determination letter. In addition, two
documents have been submitted that amount to the
briefs of counsel for 60 individual menhaden fishermen
whose claims were neither recognized nor released in
the BP settlements, Record Doc. No. 6430-1 at ¶ 3.4,

App. 29
and were denied in this batch of claims determinations.
These documents are styled “Grounds for Objection to
the Decision of the Claims Administrator” and
“Reasons for Permitting Appeal to the District Court.”
Having reviewed these materials, the determination
of the Claims Administrator is AFFIRMED, essentially
for the reasons provided by the Claims Administrator.
The New Class portion of the Halliburton/
Transocean settlements is a maritime law punitive
damages settlement. The Distribution Model and court
order approving it, Record Doc. Nos. 18797, 22252,
require that a claimant establish a compensatory
damages component of his or her claim as a
prerequisite to payment. Consistently with the courtapproved Distribution Model, the Claims
Administrator denied payment of the above-referenced
claims principally because the claimants failed to
establish a compensatory damages component in that
they have no settlement through neutrals of such a
claim, no compensatory damages claim paid through
the separate Deepwater Horizon Economic & Property
Damages Settlement program (“DHEPDS”), and no
pending individual lawsuit seeking compensatory
damages or sworn statement establishing their
identities and preserving their claims as “B1
Plaintiffs,” as required by this court’s Pretrial Order
No. 60. Record Doc. No. 16050. Judge Barbier has
previously ordered that claims of individual “B1
Plaintiffs” who failed to comply with Pretrial Order
No. 60 are dismissed with prejudice as time-barred.
Record Doc. No. 20996 at p. 5.

App. 30
During the settlement approval process concerning
the Halliburton/Transocean Settlement Agreements
and the related Distribution Model, when objections
were asserted to the requirements of compliance with
Pretrial Order No. 60 and/or payment through neutrals
settlement or the DHEPDS, the court stated:
Seventy-four objectors who failed to comply
with PTO 60 now object to the impact this
failure will have on their New Class
distribution. Rec. Doc. 21723. The Court makes
no decision on the propriety of the Claims
Administrator’s interpretation. This objection
is most properly considered in an appeal to
this Court after determinations are
concluded . . . . Seven objectors did not recover
in the DHEPDS and now seek assurance that
they will recover in the New Class Settlement.
. . . Assuming these objectors are New Class
Members, if they take issue with their award
under the Claims Administrator’s Distribution
Model, their proper remedy is an appeal to this
Court.
Record Doc. No. 22252 at p. 44 (emphasis added). Thus,
I find it appropriate to address these reasons for denial
of these claims in some detail at this time.
The Claims Administrator’s denial of these claims
must be affirmed because the denials are consistent
with the Settlement Agreements; the Neutral
Allocation of the settlement funds, Record Doc.
No. 15652; the court’s orders approving the Settlement
Agreements and its Distribution Model; and the law

App. 31
supporting them. No basis requiring a different result
is apparent or has been provided by the appellants.
As to the Distribution Model’s requirement that a
successful claimant to payment from the Halliburton/
Transocean settlements fund must demonstrate a
discernible basis for his or her recovery of
compensatory damages, this prerequisite is consistent
with the general maritime law precept that a claimant
may obtain punitive damages only if that claimant has
underlying compensatory damages. As one Louisiana
admiralty court has explained:
While the [Exxon Shipping Co. v.] Baker [U.S.
Supreme] Court [decision] did not expressly
consider whether [plaintiffs] could recover
compensatory damages for their economic losses,
that conclusion is implicit in the Court’s ruling.
The [plaintiffs] were not prevented from seeking
compensatory damages, despite their lack of
physical damage to a proprietary interest. To the
contrary, the amount of the award of punitive
damages was ultimately based on a ratio
utilizing that compensatory damage award. It is
axiomatic that punitive damages may only be
recovered in cases where compensatory damages
are allowed in the underlying claim. Therefore,
the [Supreme] Court’s recognition of the
[plaintiffs’] right to receive punitive damages,
necessarily carried with it the right of those
fishermen to be awarded compensatory damages
as well.
La. Crawfish Producers Ass’n-W. v. Amerada Hess
Corp., No. 6:10-0348, 2015 WL 10571063, at *7 (W.D.

App. 32
La. Nov. 23, 2015) (citing Exxon Shipping Co. v. Baker,
554 U.S. 471 (2008)) (emphasis added).
In assessing what amount of punitive damages
might be appropriate under maritime law, the Supreme
Court in Baker endorsed a process of
pegging punitive to compensatory damages
using a ratio or maximum multiple. See, e.g., 2
ALI Enterprise Responsibility for Personal
Injury: Reporters’ Study 258 (1991) . . . (“[T]he
compensatory award in a successful case should
be the starting point in calculating the punitive
award”); ABA, Report of Special Comm. on
Punitive Damages, Section of Litigation,
Punitive Damages: A Constructive Examination
64-66 (1986) (recommending a presumptive
punitive-to-compensatory damages ratio). . . .
And of course the potential relevance of the ratio
between compensatory and punitive damages is
indisputable, being a central feature in our due
process analysis.
Baker, 554 U.S. at 506-07 (additional citations omitted)
(emphasis added). The Supreme Court has taken a
similar approach in its decisions evaluating punitive
damages awards under the due process standard. See
BMW of N. Am., Inc. v. Gore, 517 U.S. 559, 580-81
(1996) (a non-maritime case) (“The principle that
exemplary damages must bear a ‘reasonable
relationship’ to compensatory damages has a long
pedigree. . . . Our decisions . . . endorsed the
proposition that a comparison between the
compensatory award and the punitive award is
significant.”); id. at 581 (quotation, citation and

App. 33
emphasis omitted) (“[T]he proper inquiry is whether
there is a reasonable relationship between the punitive
damages award and the harm likely to result from the
defendant’s conduct as well as the hann that actually
has occurred.”).
Even those potential claimants who, relying upon
Baker and Gore, objected to court approval of the
settlements based on this component of the
Distribution Model conceded in their objections that “a
correct statement of the law is that a party may recover
punitive damages from a defendant if the party has
recovered compensatory damages from the same
defendant.” Record Doc. No. 21723 at p. 7. The
essential point for present purposes is that some basis
for a claimant’s recovery of compensatory damages is
established. In this instance, of course, one indicator of
compensatory damages recovery is the DHEPDS
payments paid by BP, not Halliburton or Transocean.
It is clear, however, that the DHEPDS payments made
by BP also reflect any compensatory damages that
might have been obtained from Halliburton or
Transocean, since the BP settlement payments were
also “made in full, complete, and total satisfaction of all
of [plaintiffs’] compensatory damage claims against . . .
Transocean . . . and . . . Halliburton.” Record Doc.
No. 6430-1 at ¶ 4.4.10.3.
The Distribution Model is liberal in its provision
that anyone who was paid through the DHEPDS
program, regardless whether that claimant also filed
an individual lawsuit, has established the
compensatory damages component sufficiently to
receive payment under the Halliburton/Transocean

App. 34
settlements Distribution Model. However, this
provision offers no recovery avenue for the 60
menhaden fishermen in this group of appellants
because their claims were neither recognized nor
released under the BP settlements. Record Doc.
No. 6430-1 at ¶ 3.4. For them, it was reasonably
necessary to establish the compensatory damages
component of their claims as a prerequisite to their
recovery of punitive damages settlement payments in
some other way, such as by settlement through
neutrals or by asserting their claims in a lawsuit, as
required by Pretrial Order No. 60.
It is axiomatic that any person or entity with a
claim for damages must timely assert the claim and
that unasserted or untimely claims result in no
recovery. See Fed. R. Civ. P. 3 (“A civil action is
commenced by filing a complaint with the court.”); Fed.
R. Civ. P. Supp. Adm. R. F(5) (“Claims shall be filed
and served on or before the date specified in the notice
. . . [and] shall specify the facts on which the claimant
relies in support of the claim . . . .”). For more than five
years after the Deepwater Horizon disaster, members
of the broad putative class of claimants to damages
arising from the disaster might reasonably have relied
upon their presumed inclusion in the class and/or subclasses of claimants alleged in the B 1 Bundle Master
Complaint, as amended, Record Doc. No. 1128 in MDL
10-2179, ¶¶ 544-45, and its predecessors, together with
this court’s short formjoinder procedure and
individually filed lawsuits, as adequate to assert their
claims. The B 1 Bundle Master Complaint asserted a
wide variety of claims, including for both compensatory
and punitive damages, on behalf of “[a]ll individuals

App. 35
and entities residing or owning property in the United
States who claim economic losses, or damages to their
occupations, businesses, and/or property as a result of
the April 20, 2010 explosions and fire aboard, and
sinking of, the Deepwater Horizon, and the resulting
Spill,” id. ¶ 544, against principally the BP, Transocean
and Halliburton defendants. The B 1 Bundle Master
Complaint expressly included menhaden fisheries and
commercial fishers in its recitation of alleged damages
caused by the Deepwater Horizon disaster. Record
Doc. No. 1128, ¶¶ 28(a), 106, 108, 115.
On March 29, 2016, however, Judge Barbier entered
Pretrial Order No. 60, which dismissed the B 1 Master
Complaint in its entirety and required persons who
wished to continue to assert the claims included in it to
make certain filings as individuals, rather than merely
as unidentified members of a putative class. The order
provided an initial compliance deadline of May 2, 2016,
which was subsequently extended to May 16, 2016, for
anyone who requested an extension. See, e.g., Record
Doc. Nos. 16424, 16482, 16755, 17044, 17922. 1
As noted above, the Distribution Model is liberal in
its application of the axiom that a claim must be
asserted to be compensable, in that the model assumes
claim assertion for anyone who filed a claim and was
paid through the DHEPDS program. This mechanism
provided a readily identifiable basis and means of
concluding that those claimants satisfied the
compensatory damages prerequisite for payment of a

1

Judge Barbier denied a request to extend this deadline to
June 30, 2016 for all pro se plaintiffs. Record Doc. No. 18132.

App. 36
punitive damages settlement amount, for the purposes
discussed above. For those who did not or could not file
such claims, however, some other means was necessary
by which they could be identified and the compensatory
damages component required to trigger their
entitlement to a punitive damages payment could be
established. Pretrial Order No. 60 was that vehicle.
The court had undoubted authority and need to
issue Pretrial Order No. 60, requiring all parties
seeking recovery to identify themselves and assert
their claims, in the interest ofresolving and bringing to
an end the complex, broad-ranging litigation that was
the Deepwater Horizon April 20, 2010 Oil Spill MultiDistrict Litigation.
Although not without limits, the court’s
express and inherent powers enable the judge to
exercise extensive supervision and control of
litigation. The Federal Rules of Civil Procedure,
particularly Rules 16, 26, 37, 42, and 83, contain
numerous grants of authority that supplement
the court’s inherent power to manage litigation.
Federal Rule of Civil Procedure [16(c)(2)(L)]
specifically addresses complex litigation,
authorizing the judge to adopt “special
procedures for managing potentially difficult or
protracted actions that may involve complex
issues, multiple parties, difficult legal questions,
or unusual proof problems.”
In planning and implementing case
management, the court should keep in mind the
goal of bringing about a just resolution as
speedily, inexpensively, and fairly as possible.

App. 37
Judges should tailor case management
procedures to the needs of the particular
litigation and to the resources available from the
parties and the judicial system.
Manual for Complex Litigation Fourth, § 10.1 at p. 8
(Federal Judicial Center 2004) (citing Chamber v.
NASCO, Inc., 501 U.S. 32, 42-51 (1991); Pedroza v.
Cintas Corp., No. 6-01-3247-CV-S-RED, 2003 WL
828237, at *1 (W.D. Mo. Jan. 9, 2003), aff’d, 397 F.3d
1063 (8th Cir. 2005)). The legitimate need for trial
courts to engage in active management, including the
use of “special procedures” to bring the “Big Case” to
“final adjudication” without undue protraction, was the
basis for the development of both Rule 16 and the
Manual for Complex Litigation. Charles Alan Wright et
al., 6A Federal Practice & Procedure § § 1525, 1530 (3d
ed.; Westlaw database updated April 2017); id. § 1525,
cases cited at nn. 28-32 (including Cech v. MooreMcCormack Lines, Inc., 294 F.2d 584, 584 (2d Cir.
1961) (Rule 16 gives district court authority to set
deadline in pretrial order by which plaintiff must
appear to execute settlement papers or face dismissal
of his claims)); id. § 1530 at nn. 1-5.
Pretrial Order No. 60 was such a Rule 16 special
procedure. At the time of the order’s entry, the
Deepwater Horizon litigation had already lasted more
than five years. In the interests of supervising,
controlling and resolving the litigation, it was
necessary to determine what particular claims
remained to be resolved after such protracted
litigation, which included trials, appeals and various
settlements that had addressed most of the identifiable

App. 38
claims. It was entirely reasonable and justifiable in
furtherance of the interests embodied in Fed. R. Civ.
P. 1 and 16 for the court to require those claimants who
sought recovery to step forward and identify
themselves so that proceedings concerning those claims
could proceed and the litigation could be resolved.
The manner in which the court issued, administered
and enforced Pretrial Order No. 60 demonstrates the
seriousness of the order and the reasonableness of the
Claims Administrator’s adherence to its requirements
in the Distribution Model. In two separate orders
issued in 2016, Judge Barbier enforced Pretrial Order
No. 60 by dismissing with prejudice as time-barred the
claims of B 1 Plaintiffs who had failed to comply with
it. Record Doc. Nos. 20996 at p. 5, 22003.
The court’s order dismissing as time-barred the
claims of plaintiffs who had failed to comply with
Pretrial Order No. 60, Record Doc. No. 20996 at p. 5,
was consistent with the maritime law doctrine of
laches. Because Congress has enacted only a few
statutes of limitations applicable to a limited number
of types of admiralty claims, courts employ the longestablished doctrine of laches to terminate stale claims
that claimants have unduly delayed in asserting.
Laches is ‘an inexcusable delay that results
in prejudice to the defendant.’ . . . In evaluating
a defense of laches, the Court must weigh the
equities as they appear from the facts of each
case. . . . In maritime or admiralty actions, the
Fifth Circuit uses a three-part test to analyze
the validity of a laches defense: 1) whether there
was a delay in asserting a right or claim;

App. 39
2) whether or not the delay was excusable; and
3) whether the delay resulted in undue prejudice
to the party against whom the claim is asserted.
Pac. Dawn, LLC v. New Orleans Marine Serv., Inc.,
No. 10-2852, 2012 WL 686034, at *2 (E.D. La. Mar. 2,
2012) (quoting Bd. of Supervisors v. Smack Apparel
Co., 550 F.3d 465, 489-90 (5th Cir. 2008)) (citing W.
Wind Africa Line, Ltd. v. Corpus Christi Marine Servs.
Co., 834 F.2d 1232, 1234 (5th Cir. 1988); Mecom v.
Levingston Shipbldg. Co., 622 F.2d 1209 (5th Cir.
1980); Esso Int’l, Inc. v. S.S. Captain John, 443 F.2d
1144, 1150 (5th Cir. 1971)).
Pretrial Order No. 60 itself and Judge Barbier’s
subsequent orders enforcing it indicate that the court
weighed these three factors in favor of dismissing
claims deemed untimely because of failure to comply
with the order. As to delay in asserting a right or claim,
each order stressed that the subject oil spill had
occurred more than five years before Pretrial Order
No. 60 was issued, Record Doc. Nos. 16050 at p. 2,
20996 at p. 2, 22003 at p. 2; and the importance of
“timely” claims filing, Record Doc. Nos. 16050 at p. 2,
20996 at p. 2, 22003 at pp. 2, 4; all indicating that
further delay beyond the deadline set by the court was
unacceptable. Except for a very few claimants who
were found to have fallen into a “notice gap,” Record
Doc. No. 22003 at p. 13, Judge Barbier has consistently
found in enforcing Pretrial Order No. 60 that further
delay by claimants who had failed to comply with its
requirements was not excusable for any of the various
reasons they advanced. Record Doc. Nos. 20996 and
22003. The court twice noted that “[t]housands of

App. 40
Plaintiffs” had successfully complied with the simple
requirements of Pretrial Order No. 60 without
requiring excuses and had seized the “opportunity to
proceed with their B 1 claims through compliance with”
the order. Record Doc. Nos. 20996 at pp. 2-3, 22003 at
p. 3. The inherent purpose of Pretrial Order No. 60, in
its references to “effective administration of this
multidistrict litigation” and “streamlining the
remaining claims . . . to facilitate the administration of
this MDL and the prosecution of the actions herein,”
Record Doc. No. 16050 at pp. 1-2, included avoiding the
inevitable prejudice to defendants that would result
from uncertain damages exposure and having to defend
unknown individual claims that might be asserted long
after the oil spill and after the generous deadline and
mechanisms for asserting claims established by the
court expired.
Counsel for the menhaden fishermen who have filed
60 of these appeals assert a cavalcade of additional
arguments for setting aside the Claims Administrator’s
determinations. All of these arguments have either
been previously addressed by the court or require little
substantive discussion. These principal arguments
include:
(a) Pretrial Order No. 60 applied only to those who
had filed short-formjoinders to the B 1 Bundle Master
Complaint or were plaintiffs in multi-plaintiff lawsuits,
neither of which applied to them, and New Class
members were not required to do anything. Judge
Barbier’s orders enforcing Pretrial Order No. 60 have
already rejected these arguments. All of these
claimants were clearly B 1 Plaintiffs included in the

App. 41
broad definitions of plaintiffs contained in the B 1
Bundle Master Complaint.
(b) Their status as members of – although not as
specifically named plaintiffs in – various putative class
actions was sufficient to assert and preserve their
compensatory damages claims, without the need to
comply with Pretrial Order No. 60. Judge Barbier has
specifically rejected this argument, finding that
unnamed members of putative class actions were “part
of a complaint with more than one plaintiff” and
therefore responsible for complying with the
requirements of Pretrial Order No. 60. Record Doc.
No. 22003 at p. 21.
(c) They received inadequate notice either of the
requirements of Pretrial Order No. 60 or that failure to
comply would result in denial of their claims to a share
of the Halliburton/Transocean settlements. As outlined
in Judge Barbier’s orders, the notice provided was
extensive, posted through a wide variety of means, and
“deemed sufficient to satisfy notice requirements for all
Claimants with ‘Bl’ claims.” Record Doc. Nos. 16050 at
pp. 5-6, 20996 at p. 3. None of these appellants appear
to have fallen into the kind of “notice gap” that Judge
Barbier has previously found might excuse some from
the Pretrial Order No. 60 requirements. Record Doc.
No. 22003 at p. 13.
(d) Denial of their claims violates their due process
rights. Due process rights may be either substantive or
procedural. Substantive due process rights have been
described in broad and subjective terms, including
“fundamental fairness.” Perry v. New Hampshire, 565
U.S. 228, 249 (2012) (Thomas, J., concurring); Cty. of

App. 42
Sacramento v. Lewis, 523 U.S. 833, 846 (1998);
Griswold v. Connecticut, 381 U.S. 479, 513 (1965);
Rochin v. California, 342 U.S. 165, 169 (1952); Holt v.
Alexander, 493 F. App’x 608, 610 (5th Cir. 2012). I
know of no precedent or standard by which time-bar
limitations on the assertion of stale claims of the type
imposed by statutes of limitations, the laches doctrine
or the requirements of Pretrial Order No. 60 have been
deemed fundamentally unfair. The fundamental
requirements of procedural due process are notice that
is reasonably calculated to apprise parties of an action
that might deprive them of rights, such as the right to
assert a claim, and a meaningful opportunity to be
heard. Nelson v. Colorado, 137 S. Ct. 1249, 1265 (2017);
Hamdi v. Rumsfeld, 542 U.S. 507, 533 (2004); Burciaga
v. Deutsche Bank Nat’l Tr. Co., 871 F.3d 380, 390 (5th
Cir. 2017). As noted above, the notice mechanisms
employed for Pretrial Order No. 60 were varied and
numerous; thousands of persons whose rights were
affected complied. The opportunity to be heard, both by
making the filings required by Pretrial Order No. 60
and in the subsequent proceedings that resulted in
Judge Barbier’s reconciliation and compliance orders
concerning the order, Record Doc. Nos. 20996 and
22003, were extensive and meaningful. No due process
violations occurred.
(e) Denial of their claims was an “arbitrary and
capricious” violation of their equal protection rights.
Pretrial Order No. 60 did not discriminate based on
race, religion, national origin, gender or any other
conceivable suspect class. Thus, governmental action
like Pretrial Order No. 60 need only be rationally
related to legitimate purposes. Greater Houston Small

App. 43
Taxicab Co. Owners Ass’n v. City of Houston, 660 F.3d
235, 239 (5th Cir. 2011); Dudley v. Angel, 209 F.3d 460,
463 (5th Cir. 2000); Johnson v. Rodriguez, 110 F.3d
299, 306 (5th Cir. 1997). The legitimate case
management purposes of Pretrial Order No. 60 are
summarized above, and the order’s rational
relationship to those purposes is clear.
For all of the foregoing reasons, the Claims
Administrator’s determination of these claims was
consistent with the Settlement Agreements, the
Neutral Allocation of the settlement funds, the court’s
orders approving the Settlement Agreements and its
Distribution Model, and the court’s subsequent orders
and the law supporting them. They are therefore
AFFIRMED. The Claims Administrator is directed to
provide notice of this Appeal Determination to the
claimants referenced above and their counsel, if any.
/s/ Joseph C. Wilkinson, Jr.
JOSEPH C. WILKINSON, JR.
UNITED STATES MAGISTRATE JUDGE
CLERK TO NOTIFY:
HON. CARL J. BARBIER
and
HESI/TRANSOCEAN SETTLEMENT
CLAIMS ADMINISTRATOR

App. 44

APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
Civil Action Nos. 12-970, 15-4143, 15-4146
and 15-4654
JUDGE BARBIER
MAG. JUDGE WILKINSON
[Filed March 26, 2018]
_____________________________________
IN RE: OIL SPILL BY THE OIL RIG
“DEEPWATER HORIZON” IN THE
GULF OF MEXICO ON APRIL 20, 2010
______________________________________

)
)
)
)

MINUTE ENTRY
WILKINSON, M. J.
MARCH 26, 2018
MDL NO. 2179
SECTION “J”
THIS DOCUMENT RELATES TO:
Civil Action Nos. 12-970, 15-4143, 15-4146 and 15-4654
CLAIMS APPEAL DETERMINATION AND
REASONS
[Halliburton and Transocean Settlement]

App. 45
The Claims Administrator has provided me with
five sets of Appeal Forms, Appeal Determination
Notices, Court Review Requests, Claim Forms,
Settlement Program Appeal Determination Letter,
letters (constituting briefs) from claimants’ counsel and
briefs and objections to the court’s prior appeal
determination addressing similar claims of menhaden
fishermen. These materials concern the appeals of
Dobby L. Darna, Claim No. F01 *******; Darrin Covert,
Claim No. 4D0*******; Richard A. DeLacey, Claim No.
A74*******; Joseph Williamson, Claim
No. 3EF*******; and George Zirlott, Claim
No. B26*******; denying their claims for payment from
the Halliburton/Transocean Settlement Agreements.
Having reviewed these materials, the determination
of the Claims Administrator is AFFIRMED essentially
for the reasons provided by the Claims Administrator
and for the same reasons set out in detail in In re Oil
Spill by the Oil Rig “Deepwater Horizon”, No. 2179,
2018 WL 334030 (E.D. La. Jan. 4, 2018). In addition,
the United States Court of Appeals for the Fifth Circuit
has recently affirmed the validity, enforceability and
requirement of compliance with Pretrial Order No. 60
in In Re: Deepwater Horizon, 5th Cir. Case No. 1730475 (“Eduardo Pineiro Perez v. BP, P.L.C. et al.” and
consolidated cases), 5th Cir. Record Doc.
No. 00514364341 (Feb. 27, 2018).
/s/ Joseph C. Wilkinson, Jr.
JOSEPH C. WILKINSON, JR.
UNITED STATES MAGISTRATE JUDGE

App. 46
CLERK TO NOTIFY:
HON. CARL J. BARBIER
and
HESI/TRANSOCEAN SETTLEMENT
CLAIMS ADMINISTRATOR

App. 47

APPENDIX D
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
Nos. 12-970, 15-4143, 15-4146, 15-4654
JUDGE BARBIER
MAG. JUDGE WILKINSON
[Filed February 26, 2018]
_________________________________
In Re: Oil Spill by the Oil Rig
)
“Deepwater Horizon” in the
)
Gulf of Mexico, on April 20, 2010 )
________________________________ )
MDL No. 2179
SECTION: J
This Document Relates to: Nos. 12-970, 15-4143, 154146, 15-4654
ORDER
Before the Court is a Motion for Relief from Court’s
Order Approving Distribution Model for HESI/
Transocean Settlements (Rec. Doc. 23967).
IT IS ORDERED that the Motion is DENIED.
New Orleans, Louisiana, this 26th day of February,
2018.
/s/
United States District Judge

App. 48

APPENDIX E
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
Nos. 12-970, 15-4143, 15-4146, 15-4654
JUDGE BARBIER
MAG. JUDGE WILKINSON
[Filed January 31, 2018]
_________________________________
In Re: Oil Spill by the Oil Rig
)
“Deepwater Horizon” in the
)
Gulf of Mexico, on April 20, 2010 )
________________________________ )
MDL No. 2179
SECTION: J
This Document Relates to: Nos. 12-970, 15-4143, 154146, 15-4654
ORDER
Before the Court is an Objection (Rec. Doc. 23852)
to the Magistrate Judge’s Claims Appeal
Determination and Reasons (Rec. Doc. 23804)
concerning 63 claims that were denied payment from
the Halliburton/Transocean Settlement Fund.
Pursuant to this Court’s Referral Order (Rec.
Doc. 23602) and the agreement by Class Counsel,
Transocean, and Halliburton (Rec. Doc. 22178), the
Magistrate Judge’s decision on any appeal from a
Claims Administrator’s determination involving the

App. 49
amount of any payment to any individual claimant
(other than a determination that a claimant is not
entitled to any payment due to a failure to meet the
class definition) shall be final and binding, and there
shall be no appeal to any other court including the U.S.
Court of Appeals for the Fifth Circuit. Although the
Claims Administrator and the Magistrate Judge
determined that the instant claims are not eligible for
payment, those determinations were not due to a
failure to meet the class definition. Therefore, the
Magistrate Judge’s ruling is final and binding and may
not be appealed to the District Judge or any other
court. Accordingly,
IT IS ORDERED that the Objection to Magistrate
Judge’s Claims Appeal Determination and Reasons
(Rec. Doc. 23852) is OVERRULED.
New Orleans, Louisiana, this 31st day of January,
2018.
/s/
United States District Judge

App. 50

APPENDIX F
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-30243
[Filed September 10, 2019]
_____________________________________________
IN RE: DEEPWATER HORIZON
)
____________________
)
LAKE EUGENIE LAND & DEVELOPMENT, )
INCORPORATED; ET AL,
)
Plaintiffs,
)
)
v.
)
)
HALLIBURTON ENERGY SERVICES,
)
INCORPORATED; TRANSOCEAN
)
HOLDINGS, L.L.C.,
)
Defendants – Appellees,
)
)
v.
)
)
JULIUS BARBOUR; EDWARD BARNHILL,
)
JR.; EDWARD BARNHILL, SR.; KAREN
)
BARNHILL; SCOTT BLACK; ET AL,
)
Movants – Appellants.
)
____________________
)
JOHN M. PETITJEAN, individually and on
)
behalf of a putative class; ET AL,
)
Plaintiffs,
)
)

App. 51
v.
HALLIBURTON ENERGY SERVICES,
INCORPORATED; TRANSOCEAN
HOLDINGS, L.L.C.,
Defendants – Appellees,
v.
JULIUS BARBOUR; EDWARD BARNHILL,
JR.; EDWARD BARNHILL, SR.; KAREN
BARNHILL; SCOTT BLACK; ET AL,
Movants – Appellants.
____________________
ECONOMIC and PROPERTY DAMAGES
SETTLEMENT CLASS, in the matter of Bon
Secour Fisheries v. BP Exploration &
Production, Incorporated 12cv970,
Plaintiff,
v.
HALLIBURTON ENERGY SERVICES,
INCORPORATED; TRANSOCEAN
HOLDINGS, L.L.C.,
Defendants – Appellees,
v.
JULIUS BARBOUR; EDWARD BARNHILL,
JR.; EDWARD BARNHILL, SR.; KAREN
BARNHILL; SCOTT BLACK; ET AL,
Movants – Appellants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 52
CONSOLIDATED WITH 18-30413
IN RE: DEEPWATER HORIZON
____________________________
LAKE EUGENIE LAND & DEVELOPMENT,
INCORPORATED; ET AL,
Plaintiffs,
v.
HALLIBURTON ENERGY SERVICES,
INCORPORATED; TRANSOCEAN
HOLDINGS, L.L.C.,
Defendants – Appellees,
v.
JULIUS BARBOUR; EDWARD BARNHILL,
JR.; EDWARD BARNHILL, SR.; KAREN
BARNHILL; SCOTT BLACK; ET AL,
Movants – Appellants.
____________________________
JOHN M. PETITJEAN, individually and on
behalf of a putative class; ET AL,
Plaintiffs,
v.
HALLIBURTON ENERGY SERVICES,
INCORPORATED; HALLIBURTON
COMPANY,
Defendants – Appellees,
v.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 53
JULIUS BARBOUR; EDWARD BARNHILL,
JR.; EDWARD BARNHILL, SR.; KAREN
BARNHILL; SCOTT BLACK; ET AL,
Movants – Appellants.
___________________________
JOHN M. PETITJEAN, individually and on
behalf of a putative class; ET AL,
Plaintiffs,
v.
TRITON ASSET LEASING GmbH;
TRANSOCEAN DEEPWATER,
INCORPORATED; TRANSOCEAN
HOLDINGS, L.L.C.; TRANSOCEAN
OFFSHORE DEEPWATER DRILLING,
INCORPORATED,
Defendants – Appellees,
v.
JULIUS BARBOUR; EDWARD BARNHILL,
JR.; EDWARD BARNHILL, SR.; KAREN
BARNHILL; SCOTT BLACK; ET AL,
Movants – Appellants.
_____________________________
ECONOMIC and PROPERTY DAMAGES
SETTLEMENT CLASS, in the matter of Bon
Secour Fisheries v. BP Exploration
& Production,Incorporated 12cv970,
Plaintiff,
v.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 54
)
)
)
)
)
v.
)
)
JULIUS BARBOUR; EDWARD BARNHILL,
)
JR.; EDWARD BARNHILL, SR.; KAREN
)
BARNHILL; SCOTT BLACK; ET AL,
)
Movants – Appellants.
)
)
CONSOLIDATED WITH 18-30533
)
)
In re: Deepwater Horizon
)
-------------------------)
DOBBY DARNA; DARRIN COVERT;
)
RICHARD DELACEY; JOSEPH
)
WILLIAMSON; GEORGE ZIRLOTT,
)
Plaintiffs – Appellants,
)
)
v.
)
)
HALLIBURTON ENERGY SERVICES,
)
INCORPORATED; HALLIBURTON
)
COMPANY; TRANSOCEAN HOLDINGS,
)
L.L.C.; TRITON ASSET LEASING GMBH;
)
TRANSOCEAN DEEPWATER,
)
INCORPORATED; TRANSOCEAN
)
OFFSHORE DEEPWATER DRILLING,
)
INCORPORATED,
)
Defendants – Appellees.
)
____________________________________________ )
HALLIBURTON ENERGY SERVICES,
INCORPORATED,
Defendant – Appellee,

App. 55
Appeals from the United States District Court
for the Eastern District of Louisiana
ON PETITION FOR REHEARING
Before KING, ELROD, and ENGELHARDT, Circuit
Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is
DENIED.
ENTERED FOR THE COURT:
/s/ Jennifer W. Elrod
UNITED STATES CIRCUIT JUDGE

App. 56

APPENDIX G
Legal Notice
Deepwater Horizon Oil Spill
Halliburton and Transocean Settlements
Previous Claims Filers and Certain Excluded
Groups to Benefit
Majority of People Affected Do Not Need to Do
Anything
Two settlements, totaling $1,239,750,000 have been
reached with Halliburton Energy Services, Inc. and
Halliburton Company (“HESI”) and Triton Asset
Leasing GmbH, Transocean Deepwater Inc.,
Transocean Offshore Deepwater Drilling Inc., and
Transocean Holdings LLC (“Transocean”) over the
Deepwater Horizon oil spill.
The HESI/Transocean Settlements will not pay for any
economic loss or personal injury claims. The
Settlements cover punitive damages as well as certain
assigned claims from the 2012 BP Deepwater Horizon
Economic & Property Damages Settlement
(“DHEPDS”). Generally, claims for punitive damages
are not intended to compensate people for their losses,
but rather seek a monetary award that is used to
discourage a defendant and others from committing
similar acts in the future.

App. 57
In order to make a claim for punitive damages under
general maritime law, an individual or entity must
generally show that property it owned was directly
affected, impacted, or damaged by the oil. There is a
“commercial fishing” exception, which also generally
allows commercial fishermen to make a claim for
punitive damages, even though they do not “own” the
fish that were directly impacted or damaged.
What are the Lawsuits About?
The lawsuits involve certain claims arising out of the
“Deepwater Horizon Incident” in the Gulf of Mexico
beginning on April 20, 2010. The first phase of the trial
focused on identifying the causes of the blowout,
explosion, and subsequent oil spill. The Court
determined, based on the evidence, that HESI and
Transocean were not responsible for punitive damages.
There have been no appeals of these findings.
HESI and Transocean have agreed to these
Settlements to avoid the risks and costs of litigation.
Given the Court’s findings, these Settlements are the
only way to recover punitive damages under these
lawsuits.
Who is Included in the HESI/Transocean
Settlements?
There are two groups included in the Settlements:
New Class: The majority of the funds ($902 million)
will go toward compensating class members whose real
or personal property was physically oiled as well as
commercial fishermen. The New Class is intended to
address only those claims that could have been brought

App. 58
for punitive damages under general maritime law. This
includes previously excluded groups (local government,
gaming, finance, insurance, real estate development,
defense industries, and oil and gas entities),
individuals and entities that opted out of the DHEPDS,
and groups that were part of certain DHEPDS claims
categories (coastal, wetlands, vessel physical damage,
seafood, charterboat, real property sales loss, and
subsistence). These are the only claims that will be
addressed by the HESI/Transocean Settlement
Program.
Old Class: The remaining funds ($337 million) have
been allocated to compensate the existing DHEPDS
Class for Assigned Claims associated with the 2012
DHEPDS Agreement. This Class consists of hundreds
of thousands of businesses and individuals who
previously filed claims for economic losses associated
with the Deepwater Horizon oil spill. Only individuals
and businesses that previously filed a valid DHEPDS
claim will be eligible for a payment from the
HESI/Transocean Settlements associated with the
assigned claims.
How Can I Get Benefits?
You will only need to file a claim if you are a New Class
Member and were not eligible to file a claim in the
DHEPDS or elected to opt out of that settlement. If you
are a member of the earlier DHEPDS class with BP,
you cannot file a new claim. The Settlement
Administrator will use the information from your
DHEPDS claim for the purposes of determining your
eligibility for a payment from the HESI/Transocean
Settlements. If you were part of the DHEPDS class and

App. 59
decided not to file a claim or your DHEPDS claim was
denied, you cannot get any benefits from the HESI/
Transocean Settlements. The deadline to submit a
claim is December 15, 2016.
Your Other Options
If you are a New Class Member and do not want to be
legally bound by the HESI/Transocean Settlements,
you must exclude yourself by September 23, 2016, or
you won’t be able to sue HESI or Transocean later
about the claims in this case. However, considering the
Court’s findings, you may be precluded from making a
claim for punitive damages outside of these
Settlements. If you stay in the New Class or are a
member of the Old Class, you may object to the
Settlements by September 23, 2016. The Detailed
Notice (available at the website below) explains how to
exclude yourself or object.
The Court will hold a hearing on November 10, 2016,
to consider whether to approve the HESI/Transocean
Settlements and a request for attorneys’ fees up to
$124,950,000. The attorneys’ fees will be paid
separately by HESI/Transocean and will not reduce
any payments to Class Members. You or your own
lawyer may ask to appear and speak at the hearing at
your own cost.
For More Information:
Call Toll-free: 1-877-940-7792
Visit: www.GulfSpillPunitive
DamagesSettlement.com

App. 60

APPENDIX H
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF LOUISIANA
Deepwater Horizon Oil Spill
Halliburton and Transocean Settlements
Previous Claims Filers and Certain Excluded
Groups to Benefit
Majority of People Affected Do Not Need to Do
Anything
A federal court authorized this notice. This is not a
solicitation from a lawyer.
• Two settlements, totaling $1,239,750,000 have been
reached with Halliburton Energy Services, Inc. and
Halliburton Company (“HESI”) and Triton Asset
Leasing GmbH, Transocean Deepwater Inc.,
Transocean Offshore Deepwater Drilling Inc., and
Transocean Holdings LLC (“Transocean”) over the
Deepwater Horizon oil spill.
• The HESI/Transocean Settlements will not pay for
any economic loss or personal injury claims. The
Settlements cover claims that could have been
asserted for punitive damages, as well as certain
assigned claims from the 2012 BP Deepwater
Horizon Economic & Property Damages Settlement
(“DHEPDS”). Generally, claims for punitive
damages are not intended to compensate people for

App. 61
their losses, but rather seek a monetary award that
is used to discourage a defendant and others from
committing similar acts in the future.
• There are two groups included
HESI/Transocean Settlements:

in

the

#

New Class: The majority of the funds ($902
million) will go toward compensating class
members whose real or personal property was
physically oiled. See Question 4 for what
qualifies as “physical oiling.” The New Class is
intended to address only those claims that could
have been brought for punitive damages under
general maritime law. This includes previously
excluded groups (for example, local governments
and menhaden/pogy fishermen), individuals and
entities that opted out of the DHEPDS, and
groups that were part of certain DHEPDS
claims categories (coastal, wetlands, vessel
physical damage, seafood, charterboat, real
property sales loss, and subsistence). See
Question 5 for a complete list of the DHEPDS
excluded groups. These are the only claims that
will be addressed by the HESI/Transocean
Settlement Program.

#

Old Class: The remaining funds ($337 million)
have been allocated to compensate the existing
DHEPDS Class (“Old Class”) for Assigned
Claims associated with the 2012 DHEPDS
Agreement. This Class consists of hundreds of
thousands of businesses and individuals who
previously filed claims for economic losses
associated with the Deepwater Horizon oil spill.

App. 62
Only individuals and businesses that previously
filed a valid DHEPDS claim will be eligible for a
payment from the HESI/Transocean Settlements
associated with the assigned claims. Members of
the Old Class are automatically included in this
Settlement by virtue of their having participated
in the 2012 Settlement Agreement.
• If you are included in the HESI/Transocean
Settlements, your legal rights are affected whether
you act or not. Read this Notice carefully. Your
rights and options—and the deadlines to
exercise them—are explained in this Notice.
QUESTIONS? CALL 1-877-940-7792 OR VISIT
WWW.GULFSPILLPUNITIVEDAMAGESSETTLEMENT.COM

App. 63
CLASS MEMBERS’ LEGAL RIGHTS AND OPTIONS IN
THIS SETTLEMENT
DO NOTHING
Individuals/Entities
who previously filed an
eligible DHEPDS claim:
Your previous claim will
be transferred. Eligible
DHEPDS claimants will
automatically be
considered for a payment
from the HESI/Transocean
Settlements. You will be
bound by the claim you
filed in the DHEPDS. Do
not file a new claim.
DHEPDS Excluded
FILE A CLAIM – NEW
CLASS (NOT A DHEPDS Parties and Opt Outs:
File a claim to request a
CLASS MEMBER)
payment only if you were
not part of the Old Class.
This would apply if you are
part of a previously
excluded group listed in
this Notice or if you validly
exercised your option to
Opt Out of the DHEPDS.
Individuals and entities
whose claim(s) fell outside
the DHEPDS Damage
Categories may also be
eligible to file a New Class
claim. You must meet the
eligibility requirements
listed in Question 11.

App. 64
ASK TO BE EXCLUDED

OBJECT

GO TO A FAIRNESS
HEARING

If you are part of the New
Class, you may choose to
get no benefits from the
HESI/Transocean
Settlements for the New
Class. Requesting
exclusion from the New
Class would allow you to
file or continue your own
lawsuit against HESI and
Transocean about the
legal claims involved in
these Settlements. But
please see Question 29.
Write to the Court about
why you do not like the
HESI/Transocean
Settlements.
Ask to speak in Court
about the fairness of the
HESI/Transocean
Settlements.

App. 65
What This Notice Contains
BASIC INFORMATION. . . . . . . . . . . . . . . PAGE 4
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.

Why is this Notice being provided?
What are the lawsuits about?
What is the Deepwater Horizon Incident?
What is physically oiled?
What groups were excluded from the DHEPDS?
Why is this a class action?
Are the HESI/Transocean Settlements part of
the Gulf Coast Claims Facility (GCCF)?
Are the HESI/Transocean Settlements part of
the DHEPDS?
What if my DHEPDS claim is still pending or
unresolved?
What if I received a GCCF final payment and
signed a release?

WHO IS IN THE SETTLEMENTS? . . . . . PAGE 6
11.
12.
13.

14.

Who is in the New Class?
Are there exceptions to being included in the
New Class?
Do the HESI and Transocean Settlements cover
claims for economic loss, medical, or personal
injury?
What if I’m still not sure whether I am included
in the New Class?

THE SETTLEMENTS’ BENEFITS?. . . . . PAGE 8
15.
16.

What do the HESI/Transocean Settlements
provide?
How much will my payment be?

App. 66
HOW TO REQUEST A PAYMENT—SUBMITTING
A CLAIM FORM . . . . . . . . . . . . . . . . . . . . . PAGE 8
17.
18.
19.
20.
21.
22.
23.
24.
25.
26.
27.

Who has to submit a Claim Form to request a
payment?
Can I submit a claim if I voluntarily decided not
to file a claim in the DHEPDS?
Should I submit a claim if I have a claim
pending in the DHEPDS?
Should I submit a claim if my claim was paid in
the DHEPDS?
Should I submit a claim if my claim was denied
in the DHEPDS?
Should I submit a claim if I previously Opted
Out of the DHEPDS?
How do I submit a Claim Form to request
payment?
Do I need to submit supporting documentation?
What if my claim is denied or I am not satisfied
with my payment?
When will I get my payment?
What am I giving up to get a payment?

EXCLUDING YOURSELF FROM THE HESI/
TRANSOCEAN SETTLEMENTS . . . . . . PAGE 11
28.
29.
30.
31.

If I do not want to participate in the
HESI/Transocean Settlements, what must I do?
If I exclude myself, can I get anything from the
HESI/Transocean Settlements?
If I exclude myself, can I sue HESI and
Transocean later?
If I exclude myself from the HESI/Transocean
Settlements, can I change my mind later?

App. 67
OBJECTING TO THE HESI/TRANSOCEAN
SETTLEMENTS . . . . . . . . . . . . . . . . . . . . PAGE 12
32.
33.

How do I tell the Court if I do not like the
HESI/Transocean Settlements?
What is the difference between objecting to and
asking to be excluded from the HESI/Transocean
Settlements?

THE LAWYERS REPRESENTING YOU PAGE 13
34.
35.

Do I have a lawyer in this case?
How will the lawyers be paid?

THE COURT’S FAIRNESS HEARING . PAGE 13
36.
37.

When and where will the Court decide whether
to approve these Settlements?
Do I have to attend the Fairness Hearing?

IF YOU DO NOTHING . . . . . . . . . . . . . . PAGE 14
38.

What happens if I do nothing?

GETTING MORE INFORMATION . . . . PAGE 14
39.

How do I get more information?

ELIGIBILITY CHART . . . . . . . . . . . . . . . PAGE 15

App. 68
BASIC INFORMATION
1. Why is this Notice being provided?
You have a right to know about proposed Settlements
of these class action lawsuits and your options relating
to the proposed Settlements. This Notice explains the
lawsuits, the HESI and Transocean Settlements, your
legal rights, what benefits are available, who may be
eligible for those benefits, and how to get them.
Judge Carl J. Barbier of the United States District
Court for the Eastern District of Louisiana is
overseeing this class action. The case is known as In re:
Oil Spill by the Oil Rig “Deepwater Horizon” in the Gulf
of Mexico on April 20, 2010, MDL No. 2179. The people
who started the lawsuit are called “Plaintiffs,” and
HESI and Transocean, the companies being sued, are
called the “Defendants.”
Capitalized terms are defined terms in the HESI and
Transocean Settlement Agreements, which are
available on the website.
Do not call the Court or any Judge’s office to ask
questions about the HESI and Transocean
Settlements. If you have questions or if you want
more
information,
please
visit
GulfSpillPunitiveDamagesSettlement.com or call
1-877-940-7792.

App. 69
2. What are the lawsuits about?
The lawsuits involve certain claims arising out of the
“Deepwater Horizon Incident” (see Question 3) in the
Gulf of Mexico beginning on April 20, 2010.
The first phase of the trial focused on identifying the
causes of the blowout, explosion, and subsequent oil
spill. The Court determined, based on the evidence,
that HESI and Transocean did not commit gross
negligence, reckless, wanton, or willful misconduct, and
are therefore not responsible for punitive damages.
There have been no appeals of these findings.
HESI and Transocean have agreed to these
Settlements to avoid the risks and costs of litigation.
Given the Court’s findings, these Settlements are the
only way to recover punitive damages under these
lawsuits.
3. What is the Deepwater Horizon Incident?
The “Deepwater Horizon Incident” refers to the events,
actions, inactions, and omissions leading up to and
including:
• The blowout of the MC252 Well (also known as
the “Macondo Well”) on April 20, 2010;
• The design, planning, preparation, or drilling of
the MC252 Well;
• The explosions and fire on board the Deepwater
Horizon oil rig;
• The sinking of the Deepwater Horizon oil rig on
April 22, 2010;

App. 70
• The efforts to control the MC252 Well;
• The release of oil and other substances from the
MC252 Well and/or the Deepwater Horizon oil
rig and its appurtenances (equipment);
• The efforts to contain the MC252 Well;
• All “Response Activities,” including the “Vessels
of Opportunity” (“VoO”) program;
• Any damages to the MC252 Well and any
reservoir, aquifer, geological formation, or
underground strata related to the above; and
• All other responsive actions taken in connection
with the blowout of the MC252 Well.
4. What is physically oiled?
In order to make a claim for punitive damages under
general maritime law, an individual or entity must
generally show that property it owned was directly
affected, impacted, or damaged by the oil. There is a
“commercial fishing” exception, which also generally
allows commercial fishermen to make a claim for
punitive damages, even though they do not “own” the
fish that were directly impacted or damaged.
5. What groups were excluded from the
DHEPDS?
The groups that were previously excluded from the
DHEPDS include: local government, gaming, finance,
insurance, real estate development, defense industries,
menhaden fishermen, and oil and gas entities. These
groups are included in the New Class.

App. 71
6. Why is this a class action?
In a class action, one or more “Class Representatives”
sue on behalf of all those with the same types of claims
arising from the same events. One court resolves the
issues for all class members. Here, the Class
Representatives are suing to obtain payments for a
class of individuals, businesses, and local governments
with specific types of claims arising from the
Deepwater Horizon Incident.
7. Are the HESI/Transocean Settlements part
of the Gulf Coast Claims Facility (GCCF)?
No. A new Settlement Program has been established
under the HESI and Transocean Settlements. By the
agreement of the parties, the new program operates
according to specific, agreed-upon rules and is under
the supervision of the Court. If you had a claim paid by
the GCCF, and you did not sign a release (see Question
10), you may still be eligible to receive a payment
under the HESI/Transocean Settlements.
8. Are the HESI/Transocean Settlements part
of the DHEPDS?
The HESI/Transocean Settlements are separate from
the DHEPDS. However, you should note the following:
• As part of the DHEPDS, BP assigned certain
claims it had against HESI/Transocean to the
DHEPDS class. HESI/Transocean have agreed

App. 72

•

•

•

•

to settle those assigned claims and pay
DHEPDS class members (see Question 15).
If you filed a valid claim in the DHEPDS and are
included in the HESI/Transocean Class, your
previous claim will be transferred to the
administrator. DO NOT FILE A NEW CLAIM.
If you had a claim rejected under the DHEPDS,
it may affect your eligibility or right to receive a
payment under these Settlements in the
following ways:
o If your DHEPDS claim was rejected because
you or the claim were excluded from (or
Opted Out of) the DHEPDS class, you may be
eligible for benefits from the
HESI/Transocean Settlements.
o If your DHEPDS claim was denied for some
other reason, (e.g., no causation, fraud, waste
and abuse (“FWA”), or prior GCCF Release),
you cannot get a payment from the
HESI/Transocean Settlements.
If you were eligible to make a claim in the
DHEPDS, but chose not to, you cannot get a
payment from the HESI/Transocean
Settlements.
If you are a New Class Member but were unable
to file a claim in the DHEPDS because your
claim did not fall into the DHEPDS Damage
Categories, you may be eligible to file a
HESI/Transocean claim (see Questions 11 and 17
or the Eligibility Chart for additional details).

App. 73
9. What if my DHEPDS claim is still pending
or unresolved?
The DHEPDS Program is working on these claims –
and all DHEPDS claims – under the rules of the
DHEPDS. If additional information is needed to
process your claim, you will be contacted. If you have a
specific question about the status of a DHEPDS claim,
you can call the DHEPDS Administrator at
1-800-353-1262 for assistance.
10. What if I received a GCCF final payment
and signed a release?
If you made a claim to the GCCF and signed a
document called, “Release and Covenant Not to Sue,”
you are not eligible to receive money from the HESI
and Transocean Settlements. However, you may still be
eligible for a payment from the HESI/Transocean
Settlements if your GCCF claim and the “Release and
Covenant Not to Sue” related only to a bodily injury
claim.
WHO IS IN THE SETTLEMENTS?
To see if you will be affected by the HESI and
Transocean Settlements or if you can get a payment
from them, you first have to determine if you are a
Class Member.
11. Who is in the New Class?
The New Class includes individuals, businesses, local
governments, and other entities that had Real or

App. 74
Personal Property, anytime between April 20, 2010,
through April 18, 2012, that was touched or physically
damaged by the Deepwater Horizon oil spill. This
includes some new groups: local government, gaming,
finance, insurance, real estate development, defense
industries, and oil and gas entities.
The New Class also includes:
Commercial Fishermen (including menhaden/pogy
fishermen) or Charterboat Operators who, at any time
between April 20, 2009, through April 18, 2012:
• Owned, chartered, leased, rented, managed,
operated, utilized, or held any proprietary
interest in commercial fishing or charter fishing
that were Home Ported in or that landed
Seafood in the Gulf Coast Areas, OR
• Worked on or shared an interest in catch from
Vessels that fished Specified Gulf Waters and
landed Seafood in the Gulf Coast Area.
Subsistence hunters and fishers who, at any time
between April 20, 2009, through April 18, 2012:
• Fished or hunted in the Identified Gulf Waters
or Gulf Coast Areas to harvest, catch, barter,
consume, or trade natural resources, including
Seafood and game, in a traditional or customary
manner, to sustain basic family dietary,
economic security, shelter, tool, or clothing
needs.

App. 75
Individuals and entities that were unable to file a
DHEPDS claim because the claim fell outside of the
DHEPDS Damage Categories.
See the Eligibility Chart on page 16 for more details on
who is included in the New Class. The complete text of
the New Class definitions is in Section 4 of the HESI
and Transocean Settlement Agreements. The
Agreements and other materials and information are
available on the website, GulfSpillPunitive
DamagesSettlement.com, and by request. The
definitions below will help you determine if you are a
member of the New Class.
• “Charterboat Operators” means owners,
captains, and deckhands of charter fishing
vessels that carry passengers(s) for hire to
engage in recreational fishing.
• “Commercial Fisherman” means any person
or entity that gets income from catching and
selling Seafood. This includes Vessel owners,
boat captains, boat crew, boat hands, and others
who are paid based on the quantity of Seafood
lawfully caught while holding a commercial
fishing license issued by the United States
and/or the State(s) of Alabama, Florida,
Louisiana, Mississippi, and/or Texas, or
otherwise engaged in lawful commercial fishing.
• “Gulf Coast Areas” include the States of
Louisiana, Mississippi, and Alabama; the
counties of Chambers, Galveston, Jefferson, and
Orange in the State of Texas; and the counties of
Bay, Calhoun, Charlotte, Citrus, Collier, Dixie,

App. 76
Escambia, Franklin, Gadsden, Gulf, Hernando,
Hillsborough, Holmes, Jackson, Jefferson, Lee,
Leon, Levy, Liberty, Manatee, Monroe,
Okaloosa, Pasco, Pinellas, Santa Rosa, Sarasota,
Taylor, Wakulla, Walton, and Washington in the
State of Florida. “Gulf Coast Areas” also
includes all adjacent Gulf waters, bays,
estuaries, straits, and other tidal or brackish
waters within the States of Louisiana,
Mississippi, and Alabama, and those described
counties of Texas or Florida.
• “Entity” means an organization, business, local
government, or entity, other than a
Governmental Organization, operating or having
operated for-profit or not-for-profit, including a
partnership, corporation, limited liability
company, association, joint stock company, trust,
joint venture, or unincorporated association of
any kind or description.
• “Identified Gulf Waters” means the U.S. and
state territorial waters of the Gulf of Mexico and
all adjacent bays, estuaries, straits, and other
tidal or brackish waters within the territory of
the States of Louisiana, Mississippi, and
Alabama and the Texas and Florida counties
listed in the definition of Gulf Coast Areas.
• “Local Government” means a county, parish,
municipality, city, town, or village (including a
Local Government’s agency, branch, commission,
department, unit, district, or board).

App. 77
• “Personal Property” means any form of
tangible property that is not Real Property,
including Vessels.
• “Real Property” means all real property
adjacent to Identified Gulf Waters, including
property below the surface of the water, Oyster
Beds, and deeded docks.
• “Seafood” means fish and shellfish, including
shrimp, oysters, crab, menhaden, and Finfish,
caught in the Specified Gulf Waters or Identified
Gulf Waters.
• “Specified Gulf Waters” means the U.S.
waters of the Gulf of Mexico where residents of
Gulf Coast Areas are allowed to lawfully fish,
and all adjacent bays, estuaries, straits, and
other tidal or brackish waters within the Gulf
Coast Areas.
12. Are there exceptions to being included in
the New Class?
Yes. The following individuals and entities are
excluded from the New Class:
• Anyone who excludes themselves from (or “Opts
Out” of) the New Class;
• Defendants in MDL 2179 and certain current
and former employees of HESI and Transocean;
• The Court, including any sitting judges on the
United States District Court for the Eastern
District of Louisiana, their law clerks serving
during the pendency of this lawsuit, and

App. 78
members of any such judge’s or current law
clerk’s immediate family;
• Governmental Organizations (outside of
included local governments);
• BP Released Parties and certain individuals who
were employees of BP; and
• Individuals and Entities that received a
payment from the GCCF and signed a “Release
and Covenant Not To Sue.” See Question 10.
The following claims are also not included in the HESI
and Transocean Settlements:
• Bodily Injury Claims
• BP Shareholder Claims
You may still pursue these claims and remain a New
Class Member without Opting Out.
The full description of the entities, individuals, and
claims that are excluded from the New Class can be
found on the website or by calling 1-877-940-7792.
13. Do the HESI and Transocean Settlements
cover claims for economic loss, medical, or
personal
No. The HESI and Transocean Settlements do not
include claims for economic loss, medical, or personal
injury.

App. 79
14. What if I’m still not sure whether I am
included in the New Class?
If you are not sure whether you are in the New Class,
or have any other questions about the HESI and
Transocean Settlements, visit the website at
GulfSpillPunitiveDamagesSettlement.com or call the
toll-free number, 1-877-940-7792. You may also write
with questions to HESI/Transocean Punitive Damages
& Assigned Claims Settlements, PO Box 10260, Dublin,
O H 4 3 0 17-5760 or send an e-ma i l t o
questions@GulfSpillPunitiveDamagesSettlement.com.
THE SETTLEMENTS’ BENEFITS
15. What do the HESI/Transocean Settlements
provide?
HESI will contribute $1,028,000,000, and Transocean
will contribute $211,750,000 to fund the
HESI/Transocean Settlements. The majority of the
Fund ($902,083,250) will be used to pay New Class
Members. The remainder of the Fund ($337,666,750)
has been allocated to the Assigned Claims for the
benefit of the existing DHEPDS Class. The allocation
was performed by United States Magistrate Judge
Joseph C. Wilkinson, Jr., who was appointed to serve
as the Allocation Neutral under the terms of the
Settlement Agreements. The Court has preliminarily
reviewed the allocation, has granted preliminary
approval to the Settlements on that basis, and will
consider final approval of the allocation as well as the
Settlements at the formal Fairness Hearing. The cost
to provide notice and administer the HESI/Transocean

App. 80
Settlements will be paid out of the Fund. In addition to
the Fund, HESI and Transocean have also agreed to
pay certain attorneys’ fees and expenses (see
Question 35).
16. How much will my payment be?
The proposed Distribution Model will be filed with the
Court no later than June 15, 2016. The proposed
Distribution Model will also be posted to the website,
GulfSpillPunitiveDamagesSettlement.com. The Court
will assess the Distribution Model along with the
Settlements as a whole at the Fairness Hearing.
After the Distribution Model has been filed with the
Court, if you have questions about how the value of
your potential claim will be determined, you can call
1-877-940-7792 for assistance.
HOW TO REQUEST A PAYMENT—SUBMITTING A
CLAIM FORM
17. Who has to submit a Claim Form to
request a payment?
There is only one group that needs to file a claim. If you
are a New Class Member and were not eligible to file a
claim in the DHEPDS or elected to Opt Out of that
Settlement, you will need to file a claim to request a
payment from the HESI/Transocean Settlements. If
you are a member of the earlier DHEPDS Class with
BP, you cannot file a new claim. The Settlement
Administrator will use the information from your
DHEPDS claim for the purposes of determining your

App. 81
eligibility for a payment from the HESI/Transocean
Settlements.
Group
Filed a valid claim in
DHEPDS
Certain
Individuals/Entities not
allowed to file a
claim in DHEPDS.
Including new groups:
Pogy/menhaden
fishermen
Local governments
Gaming
Insurance
Financial
Real estate developers
Defense industries
Oil and gas entities

Need to File a Claim
No
Yes
(But will only be eligible to
participate if you have
oiled property or are a
commercial fisherman)

New Class Members
whose claims fell outside
of the DHEPDS Damage
Categories.
Elected to Opt Out of
DHEPDS

Yes
(but will only be eligible to
participate if you have
oiled property or are a
commercial fisherman)

App. 82
Claim was denied in
DHEPDS

No. You are not eligible for
a payment from
HESI/Transocean
Settlements (unless you
were denied because you
had an excluded claim or
Opted Out of the
DHEPDS).

DHEPDS class member No. You are not eligible for
a payment.
but did not file a claim in
that Settlement
18. Can I submit a claim if I voluntarily
decided not to file a claim in the DHEPDS?
No, unless you were deemed a valid Opt Out party for
the DHEPDS. You gave up your right to a punitive
damage award because you failed to file a claim to
recover for economic loss from the DHEPDS.
19. Should I submit a claim if I have a claim
pending in the DHEPDS?
No. The claim you filed in the DHEPDS will be
transferred to the HESI/Transocean administrator.
20. Should I submit a claim if my claim was
paid in the DHEPDS?
No. The claim you filed in the DHEPDS will be
transferred to the HESI/Transocean administrator.

App. 83
21. Should I submit a claim if my claim was
denied in the DHEPDS?
No. If your DHEPDS claim was rejected for a reason
other than the fact that you were excluded from (or
opted out of) the DHEPDS class, (e.g. no causation,
FWA denial, prior GCCF Release), you cannot get a
payment from the HESI/Transocean Settlements
because your claims for compensatory damages (upon
which a punitive damage award would be premised)
have been released. Compensatory damages
compensate for actual losses.
22. Should I submit a claim if I previously
Opted Out of the DHEPDS?
Yes, if you Opted Out of the DHEPDS Class and are
included in the New Class, you may submit a claim.
23. How do I submit a Claim Form to request
payment?
To submit a Claim Form, you must mail it to the
address below. If you have questions about how to file
your claim, you should call 1-877-940-7792 for
assistance.
Claim Forms will be available after the Distribution
Model is filed with the Court; you may download the
Claim Form from the website or request it be mailed to
you by calling 1-877-940-7792.
The address for mailing your Claim Form(s) is:

App. 84
HESI/Transocean Punitive Damages &
Assigned Claims Settlements
PO Box 10260
Dublin, OH 43017-5760
The deadline for filing a Claim Form is December 15,
2016.
24. Do I need to submit supporting
documentation?
Yes. If you are a New Class Member who needs to
submit a claim to be considered for payment as
explained above, you will need to include certain
supporting documents for your claim to be accepted.
The Claim Form will be available when the
Distribution Model is submitted to the Court for
approval and will be posted on the website,
GulfSpillPunitiveDamagesSettlement.com, or you may
request a Claim Form by mail.
25. What if my claim is denied or I am not
satisfied with my payment?
The HESI/Transocean Settlements provide a process to
resolve disagreements about how much money you
should get. You will get further details in the letter you
receive after your claim has been processed. If your
claim is denied, or if you are not satisfied with the
amount of your payment, you may file an appeal. The
Court’s decision on any appeal involving the
amount of payment will be final and binding, and
you cannot appeal to any other court regarding that

App. 85
determination, including the U.S. Court of Appeals for
the Fifth Circuit. The website will have an appeal form
and further explanation of the appeals process.
26. When will I get my payment?
All claims will be paid after all determinations are
complete and the Court has approved final distribution.
HESI/Transocean payments will not be made until
after all DHEPDS claims have been processed and
paid. There will be no opportunity for advance/interim
payments.
27. What am I giving up to get a payment?
If you accept a payment in the HESI and Transocean
Settlements, you will give up your right to sue the
Defendants or the Released Parties regarding all of the
claims resolved by the HESI and Transocean
Settlements, as described more fully in Section 10 of
the Settlement Agreements.
However, you will NOT give up your right to sue HESI
or Transocean or any of the Released Parties for any
other claims (that is, any claims that were not resolved
by these Settlements).
The Settlement Agreements are available on the
website. The Settlement Agreements describe the
released claims with specific descriptions in legal
terminology, so read it carefully. If you have any
questions about the released claims and what they
mean, you can talk to the lawyers representing the

App. 86
New Class, listed in Question 34 below, for free, or you
can, at your own expense, talk to your own lawyer.
EXCLUDING YOURSELF FROM THE
HESI/TRANSOCEAN SETTLEMENTS
If you are a member of the New Class and you do not
want to participate in the HESI/Transocean
Settlements, and want to keep all of your rights to sue
the Defendants and any of the Released Parties about
the claims being resolved in these Settlements, then
you must take steps to get out of the New Class. This
is called asking to be excluded from, or sometimes
called “Opting Out” of the class. (Members of the
existing DHEPDS cannot opt out of that class because
the opt out deadline expired when the DHEPDS Class
was approved by the Court in 2012.)
28. If I do not want to participate in the
HESI/Transocean Settlements, what must I
do?
To exclude yourself or your Entity from (or Opt Out of)
the New Class, you must mail a written request
stating, “I wish to be excluded from the HESI/
Transocean Class.” Your written request must also
include your printed name, address, and phone
number, and must be signed by you.
You must mail your written request postmarked by
September 23, 2016, to:

App. 87
HESI/Transocean Punitive Damages &
Assigned Claims Settlements
Exclusions Department
PO Box 10260
Dublin, OH 43017-5760
You cannot ask to be excluded from the HESI and
Transocean Settlements on the phone, by email, or on
the website.
If you choose to Opt Out of the New Class, you must
Opt Out for all claims you have that are included in the
HESI/Transocean Settlements.
You do not have to Opt Out of the HESI and
Transocean Settlements in order to preserve or
pursue these Reserved Claims:
• Bodily Injury Claims
• BP Shareholder Claim
29. If I exclude myself, can I get anything
from the HESI/Transocean Settlements?
No. If you exclude yourself from the HESI/Transocean
Settlements, you will not be able to receive any
payment under the HESI/Transocean Settlements, and
you cannot object to the HESI/Transocean Settlements.
If you exclude yourself, however, you may sue or be
part of a different lawsuit against HESI and
Transocean in the future. However, considering the
Court’s findings, you may be precluded from making a
claim for punitive damages outside of these
Settlements.

App. 88
30. If I do not exclude myself, can I sue HESI
and Transocean later?
No. If you are a New Class Member and you do not
exclude yourself, you give up the right to sue HESI and
Transocean or any of the Released Parties for the
claims that these Settlements resolve. You can still
pursue the Reserved Claims listed in Question 28.
31. If I exclude myself from the HESI/
Transocean Settlements, can I change my
mind later?
Yes. You have the right to request to withdraw
(“revoke”) your decision to Opt Out of the HESI and
Transocean Settlements as long as you do it by
October 14, 2016, as described more fully in Section
21(a) of the HESI and Transocean Settlement
Agreements. Please visit the website or call
1-877-940-7792 for details about how to revoke an Opt
Out.
OBJECTING TO THE HESI/TRANSOCEAN
SETTLEMENTS
32. How do I tell the Court if I do not like the
HESI/Transocean Settlements?
If you are a Class Member, you can object to the HESI
and Transocean Settlements if you do not like all or
some part of them. To object, send a letter explaining
your objection to the proposed HESI/Transocean
Settlement in In re: Oil Spill by the Oil Rig “Deepwater

App. 89
Horizon” in the Gulf of Mexico on April 20, 2010, MDL
No. 2179. Your objection letter must include:
1) A detailed statement of each objection being
made, including the specific reasons for each
objection, and any evidence or legal authority to
support each objection;
2) Your name, address, and telephone number;
3) Written evidence establishing that you are a
New Class Member, such as proof of residency,
proof of ownership of property, proof of
employment, and/or proof of business
incorporation and operation;
4) Any supporting papers, materials, or briefs that
you want the Court to consider when reviewing
the objection; and
5) Your signature.
A Class Member may also object through an attorney
hired at his, her, or its own expense. The attorney will
have to file a notice of appearance with the Court by
September 23, 2016, and serve a copy of the notice
and the objection containing the information detailed
above on New Class Counsel and HESI and
Transocean’s Counsel by September 23, 2016.
Objections must be sent by first class mail to each of
the following addresses postmarked by September 23,
2016. Objections submitted after this date will not be
considered.

App. 90
NEW CLASS COUNSEL
James P. Roy
Domengeaux Wright Roy
Edwards & Colomb
556 Jefferson St.,
Suite 500
P.O. Box 3668
Lafayette, LA 70501

Stephen J. Herman
Herman Herman & Katz
820 O’Keefe Avenue
New Orleans, LA 70113

DEFENDANT’S COUNSEL
For HESI:
Christopher J. Bellotti
Senior Counsel
Halliburton Energy
Services, Inc.
3000 N. Sam Houston
Parkway East
Bldg. J, Room 432
Houston, TX 77032-3219
Alan York
Godwin PC
1331 Lamar
Suite 1665
Houston, Texas 77010

For Transocean:
Brady Long
Senior Vice President and
General Counsel
Transocean Ltd.
Chemin de Blandonnet 10
1214 Vernier, Switzerland
Robyn Goldstein
Legal Counsel, Disputes
and Human Relations
Transocean Offshore
Deepwater Drilling Inc.
4 Greenway Plaza
Houston, TX 77046

COURT
Clerk of Court
United States District Court for the Eastern District
of Louisiana
500 Poydras Street
New Orleans, LA 70130

App. 91
Do not call the Court or any Judge’s office to
object to HESI and Transocean Settlements. If you
have questions, please visit GulfSpillPunitiveDamages
Settlement.com or call 1-877-940-7792.
33. What is the difference between objecting
to and asking to be excluded from the HESI/
Transocean Settlements?
Objecting is simply telling the Court that you do not
like something about the HESI/Transocean
Settlements. You can object only if you stay in the New
Class. Excluding yourself, also called Opting Out, is
telling the Court that you do not want to be part of the
New Class. If you exclude yourself, you cannot object to
the HESI/Transocean Settlements, and you will not be
eligible to apply for a payment under the Settlements.
THE LAWYERS REPRESENTING YOU
34. Do I have a lawyer in this case?
The Court has appointed Stephen J. Herman (Lead
Class Counsel), James P. Roy (Lead Class Counsel),
Brian H. Barr, Jeffery A. Breit, Elizabeth J. Cabraser,
Philip F. Cossich, Jr., Robert T. Cunningham, Alphonso
Michael Espy, Calvin C. Fayard, Jr., Ervin A.
Gonzalez, Robin L. Greenwald, Rhon E. Jones,
Matthew E. Lundy, Michael C. Palmintier, Joseph F.
Rice, Paul M. Sterbcow, Scott Summy, and Conrad S.
P. Williams as “New Class Counsel” to represent the
New Class Members. You will not be charged for these
lawyers. If you want to be represented by your own

App. 92
lawyer in this case, you may hire one at your own
expense.
35. How will the lawyers be paid?
New Class Counsel will ask the Court to consider an
award of attorneys’ fees and costs and expenses
incurred for the benefit of the entire Class. Class
Counsel fees, costs, and expenses under the HESI and
Transocean Settlement Agreement jointly cannot
exceed $124,950,000.
New Class Members’ payments will not be reduced if
the Court approves the payment of Class Counsel fees,
costs, and expenses described above. HESI and
Transocean will separately pay these attorney fees,
costs, and expenses.
THE COURT’S FAIRNESS HEARING
36. When and where will the Court decide
whether to approve these Settlements?
The Court will hold a Fairness Hearing at 9:30 a.m. on
November 10, 2016, at the United States District
Court for the Eastern District of Louisiana, Court
Room No. C268, 500 Poydras Street, New Orleans, LA
70130. At the Fairness Hearing, the Court will consider
whether the proposed HESI/Transocean Settlements
are fair, reasonable, and adequate along with the
proposed Distribution Model. The Court will also
consider Class Counsel’s request for fees, costs, and
expenses described in Question 35.

App. 93
If there are objections to the HESI/Transocean
Settlements, the Court will consider them. After the
Fairness Hearing, the Court will decide whether to
approve the HESI/Transocean Settlements and how
much to award to New Class Counsel as fees, costs, and
expenses.
The Fairness Hearing may be moved to a different
date, time, or location without additional notice, so it is
recommended that you periodically check the website
for updated information.
37. Do I have to attend the Fairness Hearing?
No. New Class Counsel will answer any questions the
Court may have. However, you are welcome to attend
the hearing at your own expense. If you send in a
written objection, you do not have to come to the
Fairness Hearing to talk about it. As long as you
mailed your written objection on time, the Court will
consider it.
You or any attorney you have hired may ask the Court
for permission to speak at the Fairness Hearing. To do
so, you must include this request with your objection as
described in Question 32.
Do not call the Court or any Judge’s office to get
information about the HESI and Transocean
Settlements. If you have questions, please visit the
website or call 1-877-940-7792.

App. 94
IF YOU DO NOTHING
38. What happens if I do nothing?
The consequences of doing nothing depends on which
group you fall into:
• New Class Members who do not exclude
themselves from the HESI and Transocean New
Class Settlements will not be able to start a
lawsuit, continue with a lawsuit, or be part of
any other lawsuit against HESI and Transocean
or the Released Parties about the punitive
damages claims being released by the HESI/
Transocean Settlements.
• New Class Members who are members of the
DHEPDS Class, but never filed a claim in the
DHEPDS Settlement Program, and do nothing
will not get a payment from the HESI/
Transocean Settlements.
• New Class Members who previously filed a valid
DHEPDS claim and do nothing will be eligible
for benefits from the HESI/Transocean
Settlements.
However, even if you take no action, you will keep your
right to sue HESI and Transocean or any of the
Released Parties for any other claims not resolved by
the HESI/Transocean Settlements or by the Court’s
findings (see Question 2). These “Reserved Claims” are
listed under Question 28 and are described in the HESI
and Transocean Settlement Agreements and on the
website.

App. 95
GETTING MORE INFORMATION
39. How do I get more information?
This Notice summarizes the proposed HESI/
Transocean Settlements. More details are in the HESI
and Transocean Settlement Agreements. You can get
a copy of the Settlement Agreements on the website.
You also may write with questions to HESI/Transocean
Punitive Damages & Assigned Claims Settlements, PO
Box 10260, Dublin, OH 43017-5760 or send an e-mail
to questions@GulfSpillPunitiveDamages
Settlement.com. You can get a Claim Form on the
website or have one mailed to you by calling
1-877-940-7792.
Do not call the Court or any Judge’s office to get
information about the HESI and Transocean
Settlements. If you have questions, please visit the
website or call 1-877-940-7792.
ELIGIBILITY CHART
Claim
Category

New Class Eligibility
Requirements

Real
Individuals, businesses, trusts,
Property non-profits, or any other Entity
Damage (including Local Government entities)
who owned, leased, rented, or held any
proprietary interest in real property
adjacent to Identified Gulf Waters,
including property below the surface of
the water, Oyster Beds, and deeded

App. 96
docks at any time between April 20,
2010, through April 18, 2012, that was
alleged to have been physically
damaged by oil or other substances as
further described in the Settlement
Agreement.
This category includes the following
claim types from the DHEPDS:
•
•
•
•

Coastal Real Property
Wetlands Real Property
Real Property Sales
Oyster Leaseholder

DHEPDS claims will be automatically
transferred to the HESI/Transocean
Settlements for consideration.
Personal Individuals, businesses, trusts,
Property non-profits, or any other Entity
Damage (including Local Government entities)
who owned, chartered, leased, rented,
or held any proprietary interest in
personal property, defined as any form
of tangible property that is not Real
Property, including Vessels, at any
time between April 20, 2010, through
April 18, 2012, that was alleged to have
been physically damaged by oil or other
substances as further described in the
Settlement Agreement.
This category includes the following
claim types from the DHEPDS:

App. 97
• Vessel Physical Damage
• Physical damage to personal
property portion of Coastal Real
Property
• Physical damage to personal
property portion of Wetlands
Real Property
DHEPDS claims will be automatically
transferred to the HESI/Transocean
Settlements for consideration.
Claim
New Class Eligibility Requirements
Category
Commercial Commercial Fishermen or Charterboat
Fishermen Operators who, anytime from April 20,
and
2009, through April 18, 2012, (a) owned,
Charterboat
chartered, leased, rented, managed,
Operators

operated, utilized, or held any
proprietary interest in commercial
fishing or charter fishing Vessels that
were Home Ported in or that landed
Seafood in the Gulf Coast Areas, or
(b) worked on or shared an interest in
catch from Vessels that fished in
Specified Gulf Waters and landed
Seafood in the Gulf Coast Area as
further described in the Settlement
Agreement.

Commercial Fishermen means a
Natural Person or Entity that derives

App. 98
income from catching Seafood and
selling Seafood, which shall include
Vessel owners, boat captains, boat crew,
boat hands, and others who are paid
based on the quantity of Seafood
lawfully caught while holding a
commercial fishing license issued by the
United States and/or the State(s) of
Alabama, Florida, Louisiana,
Mississippi, and/or Texas, or otherwise
engaged in lawful commercial fishing.
Seafood means fish and shellfish,
including shrimp, oysters, crab,
menhaden, and Finfish caught in the
Specified Gulf Waters or Identified Gulf
Waters.
Menhaden/Pogy fishermen are
included.
Charterboat Operators means owners,
captains, and deckhands of charter
fishing vessels that carry passenger(s)
for hire to engage in recreational
fishing.
This category includes the following
claim types from the DHEPDS:
• Seafood Compensation (except for
Oyster Leaseholder)
• Business Economic Loss (BEL)
for Charterboat Operators
• Individual Economic Loss (IEL)
for Charterboat crew members

App. 99
DHEPDS claims will be automatically
transferred to the HESI/Transocean
Settlements for consideration.
Loss of
Includes individuals who fished or
Subsistence hunted, anytime from April 20, 2009,

through April 18, 2012, in the Identified
Gulf Waters or Gulf Coast Areas to
harvest, catch, barter, consume, or
trade natural resources, including
Seafood and game, in a traditional or
customary manner, to sustain basic or
family dietary, economic security,
shelter, tool, or clothing needs.
Those who fish or hunt solely for
pleasure or sport are not eligible to
make claims for subsistence, regardless
of whether or not they consume their
catch.
This category includes the following
claim type from the DHEPDS:
• Subsistence
DHEPDS claims will be automatically
transferred to the HESI/Transocean
Settlements for consideration.

